APPENDICES

1a
APPENDIX A
[Filed January 20, 2020]
IN THE UNITED STATES
COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----No. 18-51066
-----DEMETRIAS TAYLOR, As representative of the
estate of Iretha Jean Lilly, Deceased; TERRANCE
HAMILTON; TERRANCE LAMONT HAMILTON,
As
next of friend and father of I.H.,
Plaintiffs–Appellants,
v.
MCLENNAN COUNTY; KIMBERLY
RIENDFLIESCH; DESERA ROBERTS; JOHN
WELLS,
Defendants–Appellees
----------------Appeal from the United States District Court for the
Western District of Texas
USDC No. 6:16-CV-395
---------------

2a
Before OWEN, Chief Judge, and BARKSDALE and
DUNCAN, Circuit Judges. PER CURIAM: ∗
Demetrias Taylor, as representative of Iretha
Jean Lilly’s estate, Terrance Hamilton, and Terrance
Lamont Hamilton, as next friend and father of I.H.,
(collectively, Plaintiffs) filed this 42 U.S.C. § 1983
action, asserting that McLennan County subjected
Lilly to unconstitutional conditions of confinement,
and Nurses Desera Roberts and Kimberly
Riendfliesch
failed
to
provide
Lilly
with
constitutionally adequate medical care. Plaintiffs
later filed an amended complaint raising claims
against Dr. John Wells for failing to provide Lilly with
constitutionally adequate medical care and failure to
supervise. The district court granted summary
judgment in favor of the defendants on each claim.
After carefully reviewing the briefs, record, and oral
argument, we affirm for essentially the reasons stated
by the district court in its October 2 and December 3,
2018, orders. 1
AFFIRMED.

Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not
precedent except under the limited circumstances set forth
in 5TH CIR. R. 47.5.4.

∗

See Taylor v. McLennan Cty. et al., No. 6:16-CV-395 (W.D.
Tex. Dec. 3, 2018); Taylor v. McLennan Cty. et al., No. 6:16CV-395 (W.D. Tex. Oct. 2, 2018).
1

3a
APPENDIX B
[Signed December 3, 2018]
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION
DEMETRIAS TAYLOR, AS
REPRESENTATIVE OF
THE ESTATE OF IRETHA
JEAN LILLY, DECEASED;
TERRANETHA RANCH,
DAYSHALON RANCH,
KEVIN RANCH, TERRANCE
HAMILTON, TERRANCE
LAMONT HAMILTON,
AS NEXT OF FRIEND AND
FATHER OF I.H.;
Plaintiffs,
-vsMCLENNAN COUNTY,
KIMBERLY RIENDFLIESCH,
DESERA ROBERTS,
Defendants

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

W-16-0095ADA

ORDER DISMISSING PLAINTIFFS’ CLAIMS
WITH PREJUDICE AND DENYING
PLAINTIFFS’ MOTION FOR
SUMMARY JUDGMENT

4a
Came for consideration this date the Motion for
Summary Judgment filed by McClennan County,
(ECF No. 37), and Plaintiffs’ Motion for Summary
Judgment filed against Defendant McClennan
County, (ECF No. 43). The Court also considered the
Motions for Summary Judgment filed by Defendants
Desera Roberts, (ECF No. 36), and Kimberly
Riendfliesch, (ECF No. 38). Finally, the Court
considered Plaintiffs’ Motions for Summary Judgment
against both Desera Roberts, (ECF No. 44), and
Kimberly Riendfliesch, (ECF No. 45). The Court has
also considered all the responses and replies filed by
the Parties. The Court conducted a hearing on all the
motions on October 23, 2018.
BACKGROUND
These cross-motions for summary judgment
arise out of the death of Iretha Jean Lilly (“Lilly”), a
pretrial detainee in the McLennan County (the
“County”), Texas, Jail. Lilly died from an untreated
heart attack (acute myocardial infarction) less than
12 hours after being admitted to the McLennan
County Jail (the “County Jail”). During her short stay
in the County Jail, Defendants conducted three
separate EKGs on Lilly after she complained of chest
and extremity pain to several employees at the
County Jail. 2 Plaintiffs’ primary theory of liability
relates to the undisputed fact that the medical staff
did not immediately transfer her to a hospital after
According to Plaintiffs the results of the second
EKG are unavailable. Pl. Mot. Summ. J., ECF No. 43 at
5.

2

5a
taking the first EKG. The question for the Court is
whether this failure to do so amounted to intentional
or deliberate indifference sufficient to violate Lilly’s
constitutional rights. The Court finds that it does not.
McLennan County argues that it is entitled to
summary judgment on all Plaintiffs’ claims against it
because Plaintiffs cannot establish that a
constitutional deprivation was caused by a policy,
custom, or practice of the county. Defendants
Riendfliesch and Roberts assert that they are entitled
to qualified immunity because their conduct, in terms
of the medical treatment that they provided, did not
violate Iretha Jean Lilly’s constitutional rights. They
also argue, in the alternative, that their conduct was
objectively reasonable and did not violate clearly
established law. Plaintiffs argue to the contrary, and
contend that they are entitled to summary judgment
because McLennan County is liable as a matter of law
under Monell. Plaintiffs also claim that Roberts and
Riendfliesch are liable because they acted with
deliberate indifference in regard to Lilly’s care. Both
sides have submitted extensive numbers of allegedly
undisputed facts in support of their motions.
SUMMARY JUDGMENT STANDARD
Summary judgment is appropriate “[i]f the
pleadings, depositions, answers to interrogatories and
admissions on file together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(c). A party
moving for summary judgment need not support the
motion with affidavits or other evidence negating the
movant’s claim. If the non-movant bears the burden of

6a
proof at trial, the movant may satisfy its burden by
showing that there is an absence of evidence to
support the non- movant’s case. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986); Little v. Liquid
Air Corp., 37 F.3d 1069, 1075 (5th Cir. 1994).
Summary judgment is mandatory when a party fails
to establish the existence of an essential element of its
case on which the party will bear the burden of proof
at trial. Cellotex Corp. v. Catrett, 477 U.S. 317, 322
(1986).
Once the movant satisfies his initial burden,
the burden then shifts to the non-movant to establish
that summary judgment is not appropriate. Little, 37
F.3d at 1075 (citing Cellotex Corp., 477 U.S. at 325).
“This burden is not satisfied with ‘some metaphysical
doubt as to the material facts’” . . . by ‘conclusory
allegations’. . . by ‘unsubstantiated assertions’ or by
only a ‘scintilla’ of evidence.” Id. (quoting Matsushita
Electric Industrial Corporation v. Zenith Radio Corp.,
475 U.S. 574, 586 (1986); Lujan v. National Wildlife
Federation, 497 U.S. 871, 882–83 (1990); Hopper v.
Prank, 16 F.3d 92, 97 (5th Cir. 1994); Davis v. Chevron
U.S.A., Inc., 14 F.3d 1082, 1086 (5th Cir. 1994).
Rather the non-moving party must “come forward
with specific facts that there is a genuine issue at
trial.” Matsushita, 475 U.S. at 587 (quoting Fed. R.
Civ. P. 56(e)).
DISCUSSION
“To plead a constitutional claim for relief under
§ 1983 [a plaintiff must] allege a violation of a right
secured . . . by the Constitution or laws of the United
States and a violation of that right by one or more
state actors.” Johnson v. Dallas Indep. Sch. Dist., 38

7a
F.3d 198, 200 (5th Cir. 1994). It is undisputed that
Lilly was a pretrial detainee and was entitled to
reasonable medical care. Considering that the
restraints imposed on pretrial detainees are simply
measures to assure their presence at trial,
constitutional deprivations become particularly
egregious.
To establish inadequate medical care under §
1983, Plaintiffs must “allege acts or omissions
sufficiently
harmful
to
evidence
deliberate
indifference to serious medical needs.” Estelle v.
Gamble, 429 U.S. 97, 106 (1976). Negligence, medical
malpractice, or unsuccessful medical treatment does
not constitute deliberate indifference. Gobert v.
Caldwell, 463 F.3d 339, 346 (5th Cir. 2006). Instead,
“[a] showing of deliberate indifference requires the
prisoner to submit evidence that prison officials
refused to treat him, ignored his complaints,
intentionally treated him incorrectly, or engaged in
any similar conduct that would clearly evince a
wanton disregard for any serious medical needs.” Id.
(quoting Domino v. Texas Dep’t of Crim. Justice, 239
F.3d 752, 756 (5th Cir. 2001) (quotations omitted)).
The Fifth Circuit has held that deliberate indifference
is an “extremely high standard to meet.” Id.
The deliberate-indifference standard set forth
in Farmer v. Brennan, 511 U.S. 825, 837–40 (1994),
applies to pretrial detainees as well as prisoners. See
Hare v. City of Corinth, Miss., 74 F.3d 633, 643 (5th
Cir. 1996) (en banc); see also Zimmerman v. Cutler,
657 F. App’x. 340, 348 (5th Cir. 2016). To prevail, a
pretrial detainee must demonstrate that a
government official was deliberately indifferent to “a
substantial risk of serious medical harm.” Wagner v.
Bay City, 227 F.3d 316, 324 (5th Cir. 2000). A prison

8a
official acts with deliberate indifference to an inmate’s
health “only if he knows that [the] inmate[ ] face[s] a
substantial risk of serious harm and disregards that
risk by failing to take reasonable measures to abate
it.” Farmer, 511 U.S. at 847; see also Gobert, 463 F.3d
at 346 (holding that prisoner must “submit evidence
that prison officials refused to treat him, ignored his
complaints, intentionally treated him incorrectly, or
engaged in any similar conduct that would clearly
evince a wanton disregard for any serious medical
needs” (quotations and citations omitted)); Reeves v.
Collins, 27 F.3d 174, 176–77 (5th Cir. 1994) (applying
Farmer to a denial of a medical care claim).
In articulating the scope of this right, the
Supreme Court has warned that not “every claim by a
prisoner that he has not received adequate medical
treatment states a [constitutional] violation.” Estelle,
429 U.S. at 105. Mere negligence or medical
malpractice is not sufficient. See West v. Atkins, 487
U.S. 42, 108 n.8 (1988); Estelle, 429 U.S. at 105–06.
However, “[a]n inmate must rely on prison authorities
to treat his medical needs; if the authorities fail to do
so, those needs will not be met.” Estelle, 429 U.S. at
103. The state has a constitutional obligation to
provide adequate medical care to those whom it has
incarcerated. Id; see also West, 487 U.S. at 54.
Accordingly, “deliberate indifference to a prisoner’s
serious illness or injury states a cause of action under
[§] 1983.” Estelle, 429 U.S. at 105.
As a starting point, the Court determines that
this standard has not been met with respect to any of
the
Defendant
movants.
Rather,
Plaintiffs’
contentions amount to a complaint about the
treatment received or an allegation of malpractice,
neither of which amounts to deliberate indifference.

9a
See Stewart v. Murphy, 174 F.3d 530, 534 (5th Cir.
1999); Banuelos v. McFarland, 41 F.3d 232, 235 (5th
Cir. 1995). The Court finds that the summary
judgment evidence presented by the Defendant
movants establishes that there is no genuine issue of
material fact that the Defendant nurses and
remaining medical staff did not ignore Lilly’s
complaints, did not refuse to treat her, did not
intentionally treat her incorrectly, and did not exhibit
a “wanton disregard” for her “serious medical needs.”
See Gobert, 463 F.3d at 346. The evidence also directly
contradicts Plaintiffs’ assertions that the Defendants
were deliberately indifferent, refused to help Lilly, or
let Lilly suffer.
I.

McLennan County’s
Summary Judgment

Motion

for

Plaintiffs have asserted a claim for an
unconstitutional condition of confinement against
McLennan County. Additionally, Plaintiffs have
alleged facts that can be construed as an episodic act
or omission claim against the County. For the reasons
set forth below, both of those claims fail as a matter of
law and McLennan County is entitled to summary
judgment in its favor.
a. Condition of confinement claim
against McLennan County

The Court concurs with McLennan County that
Plaintiffs’ claim sounds more as an episodic act or
omission claim rather than a condition of confinement
claim. The relevant conduct that relates to the
ultimate death of Lilly occurred within a relatively

10a
short period of time on October 6, 2014. The
complaints of wrongdoing focus primarily on the
conduct of specific nurses in their failure to recognize
information from EKGs and to more quickly get
Lilly to an emergency room. Despite Plaintiffs’ claim
sounding more as an episodic act or omission claim,
the Court will analyze Plaintiffs’ claim as both a
condition of confinement claim and as an episodic act
or omission claim. 3
To succeed on a claim of unconstitutional
condition of confinement, a plaintiff must prove (1) a
rule or instruction, an intended condition or practice,
or a de facto policy as evidenced by sufficiently
extended or pervasive acts of jail officials; (2) not
reasonably related to a legitimate government
objective; and (3) that violated Lilly’s constitutional
rights. Estate of Henson v. Wichita Cty., Tex., 795 F.3d
456, 468 (5th Cir. 2015) (citations omitted); see also
Kitchen v. Dallas County, Texas, 759 F.3d 468, 482
(5th Cir. 2014) (“The deliberate indifference standard,
however, is not an obligation for government officials
to comply with an ‘optimal standard of care.’”);
Thomas v. Carter, 593 F. App’x. 338, 345 (5th Cir.
2014) (“Even assuming this conduct violated a
standard of care, mere negligence is insufficient to
sustain a deliberate indifference claim.”). At best,
Plaintiffs’ allegations concern potential negligence,
but negligence does not rise to the level of deliberate
indifference and cannot sustain a cause of action
This Court has previously dismissed Plaintiffs’
claims against Dr. Wells because the statute of limitations
in which to file a claim against Dr. Wells had expired. See
Order Adopting Magistrate’s Report and Recommendation
and Dismissing Plaintiffs’ Claims Against Defendant Wells
With Prejudice, (ECF No. 68), dated October 2, 2018.
3

11a
under §1983 for denial of medical care. Hare, 74 F.3d
at 649; Thompson v. Upshur Cty., TX, 245 F.3d 447,
459 (5th Cir. 2001); Leffall v. Dallas Indep. Sch. Dist.,
28 F.3d 521, 532 (5th Cir. 1994). “Claims founded on
negligence or medical malpractice simply are not
cognizable under 42 U.S.C. §1983.” Jacks v. Normand,
2018 WL 1363756 at *4 (E.D. LA, Feb. 23, 2018)
(citing Stewart, 174 F.3d at 534).
To satisfy the first element, Plaintiffs must
identify either an actual, explicit policy, or a de facto
policy. Id. A formal, written policy is not required to
establish a “condition or practice.” As the Fifth Circuit
has noted, “a condition may reflect . . . [a] de facto
policy, as evidenced by a pattern of acts or omissions
‘sufficiently extended or pervasive, or otherwise
typical of extended or pervasive misconduct by [jail]
officials, to prove an intended condition or practice.’”
Shepherd v. Dallas Cty., 591 F.3d 445, 452 (5th Cir.
2009) (quoting Hare, 74 F.3d at 645). In other words,
it is not enough to show that a plaintiff suffered from
episodic acts or omissions of jail officials, but instead,
a plaintiff must show that the disputed acts are
indicative of a system-wide, extended, pervasive
problem. Shepherd, 591 F.3d at 455. In Shepherd, the
Fifth Circuit noted that:
[I] solated examples of illness, injury,

or even death, standing alone, cannot
prove that conditions of confinement
are constitutionally inadequate . . .
Rather, a detainee challenging jail
conditions must demonstrate a
pervasive
pattern
of
serious
deficiencies in providing for his [or
her] basic human needs; any lesser

12a
showing cannot prove punishment in
violation of the detainee’s Due Process
rights.
Id. at 454; see also Estate of Henson, 795 F.3d at 469–
70 (“Plaintiffs’ evidence of one other death that took
place in the jail four month prior, is not sufficient to
show that the jail’s medical staffing was
constitutionally inadequate.”). The standard is
“functionally equivalent to a deliberate indifference
inquiry.” Hare, 74 F.3d at 643. Here, Plaintiffs
attempt to establish that a general policy of not
sending inmates immediately to an emergency room
when they present medical complications was
tantamount or the functional equivalent of deliberate
indifference. The Court disagrees under the summary
judgment facts that have been presented, even when
viewed in the light most favorable to Plaintiffs.
To satisfy the second element, Plaintiffs must
establish that the condition was not reasonably
related to a legitimate governmental objective, but
rather was arbitrary or purposeless, thereby inferring
“that the purpose of the governmental action is
punishment that may not constitutionally be inflicted
upon detainees qua detainees.” Estate of Henson, 795
F.3d at 463 (quoting Bell v. Wolfish, 441 U.S. 520, 539
(1979)). This element is critical because it is, at least
in part, what separates a § 1983 case from a medical
negligence case.
A properly-stated condition-of-confinement
claim is not required to demonstrate actual intent to
punish; rather, intent may be inferred from an entity’s
decision to subject pretrial detainees to an
unconstitutional condition. Shepherd, 591 F.3d at
452. A county allowing a staph infection to persist

13a
within a jail, for instance, serves no legitimate
government purpose. See Duvall v. Dallas Cty., Tex.,
631 F.3d 203, 207 (5th Cir. 2011). In contrast, bodycavity searches of pretrial detainees are reasonably
related to a legitimate government interest in secure
facilities, as are cell searches. Bell, 441 U.S. at 555–
60.
In this case Plaintiffs have alleged a delay of
medical care that resulted in the death of Lilly.
However, not every denial or delay of medical care
imposed during pretrial detention amounts to
“punishment” in the constitutional sense. For
instance, the effective management of a detention
facility is a valid objective justifying the imposition of
conditions or restrictions affecting medical care.
Estate of Henson, 795 F.3d at 467–68 (citing Bell, 441
U.S. at 537). In determining “whether restrictions or
conditions are reasonably related to the Government’s
interest in . . . operating the institution in a
manageable fashion,” courts must remember that
“‘[s]uch considerations are peculiarly within the
province and professional expertise of corrections
officials.’” Bell, 441 U.S. at 540 n.23 (quoting Pell v.
Procunier, 417 U.S. 817, 827 (1974)). Courts must not
become “enmeshed in the minutiae of prison
operations,” which will only distract from the question
presented: “does the practice or condition violate the
Constitution?” Bell, 441 U.S. at 544, 562. For example,
absent a clear emergency and a life-threatening
situation, it may be necessary for the jail and its
providers of medical care to prioritize the important
task of providing necessary medicines to prisoners
who are patients and whose movements are severely
restricted over other tasks.
To satisfy the third element, Plaintiffs must

14a
establish that a rule or restriction, or the existence of
an identifiable intended condition or practice, or a de
facto policy caused a violation of Lilly’s constitutional
rights. Estate of Henson, 795 F.3d at 468. The Court
believes that the summary judgment evidence
submitted by all the movants establishes that
Plaintiffs cannot establish all three elements.
Plaintiffs allege that McLennan County
maintained
unconstitutional
conditions
of
confinement which caused Lilly to be exposed to
inadequate medical care, and/or that the conditions of
the County Jail constituted arbitrary punishment of
a pre-trial detainee. Pl. Am. Compl., ECF No. 13 ¶ 68.
Plaintiffs’ condition of confinement claim is based on
the following “conditions”: (1) that the County had a
procedure that prohibited nurses from sending
inmates to the hospital without a doctor’s approval,
even if there was no doctor on-site at the jail and the
inmates were suffering from life threatening medical
conditions; (2) that the County had “a policy, practice,
custom, procedure, or training” wherein medical
intake personnel were permitted to perform medical
intakes of inmates while not medically clearing
inmates and failing to inform the supervising doctor
that the inmates had not been medically cleared even
after an inmate had been in jail for more than six
hours, had been tased, had been complaining of chest
pain, and/or had an abnormal EKG; and (3) that the
County had a policy, practice, or custom that
permitted Lilly to be transferred to the jail without
ensuring that the proper personnel were informed
that she had been tased, tested positive for
methamphetamine and amphetamine, and had

15a
complained of chest pain. 4 Id. ¶¶ 68–70, 78.
Plaintiffs allege that Lilly died as the result of
a de facto policy maintained by the County of refusing
to send inmates, even those who needed immediate
emergency medical care, to the hospital without
obtaining the approval of Dr. Wells. Integral to this
argument is a contention that Dr. Wells was the
policymaker on behalf of McLennan County, thereby
subjecting the County to liability. 5
The Court finds that there is no credible
summary judgment evidence that an alleged practice,
rule, or policy of the County of not sending inmates to
the hospital without the approval of Dr. Wells
(regardless of whether the practice existed or not)
violated Lilly’s constitutional rights. This is not a
medical malpractice or negligence case. Plaintiffs
must establish the loss of a constitutional right, which
requires proof of deliberate indifference rather than
mere negligence. To prove the County’s medical
system was constitutionally deficient, Plaintiffs must
The Court notes an inherent inconsistency between
arguments numbered (2) and (3). While parties are
certainly allowed to make alternative theories for liability,
in the case the standard the Plaintiff must meet is proof of
deliberate indifference. Therefore, it seems irreconcilable
to the Court that one argument is that the medical staff
were aware of critical medical information concerning
Lilly’s medical condition and took no steps to help her and
the next argument is that the County is liable because Lilly
was placed into their care without being adequately
informed of her medical condition.
5
As will be discussed further in the following
section of this Order, the Court finds that Dr. Wells was
not the policymaker on behalf of McLennan County.
4

16a
present evidence of “more than an isolated incident;
[they] ‘must demonstrate a pervasive pattern of
serious deficiencies in providing for [Lilly’s] basic
human needs.’” Elder v. Hockley Cnty. Comm’rs Court,
589 F. App’x. 664, 668 (5th Cir. 2014) (quoting
Shepherd, 591 F.3d at 454); see also Duvall, 631 F.3d
at 208. Isolated instances of inadequate medical care
are insufficient to establish a jail condition case.
Shepherd, 591 F.3d at 455.
Plaintiffs have not submitted evidence of prior
similar instances of inmates not being sent to the
hospital due to nurses not getting the approval from
the doctor to do so. In addition, Plaintiffs have not
presented sufficient summary judgment evidence to
demonstrate that serious injury and death were the
inevitable result of the practice of requiring the
doctor’s approval before an inmate can be sent to the
hospital.
The
summary
judgment
evidence
establishes that County Jail’s nursing staff did have
the training, authorization, and discretion to send
inmates to the hospital based on the medical needs of
the inmates without first seeking approval from Dr.
Wells. Dr. Wells Dep., ECF Nos. 40-2 at 3–4, 5–10, 14;
40-3 at 2–3, 5–6. The summary judgment evidence
also establishes that the nursing staff had sent
inmates to the hospital in the past without seeking
Dr. Wells’ approval. Dr. Wells Dep., ECF No. 40-3 at
5–6. Certainly, the evidence eliminates the possibility
that Plaintiffs could establish that there was a type of
pervasive conduct with respect to this issue that
would constitute a constitutional injury.
Moreover, Plaintiffs’ cannot rebut the evidence
that the County had an actual policy that required
medical care and emergency medical care to be
provided to the inmates at the County Jail.

17a
McNamara Aff., ECF No. 40-4 at 2. Again, while in
any individual circumstance a claim of negligence or
medical malpractice might be made, it cannot be said
that the County agreed, in a de facto manner, to
deliberately withhold medical care from Lilly or the
other prisoners. To the contrary, the County
contracted with a third party to provide physician and
other medical services to the inmates and pre-trial
detainees. Agrmt. for Med. Dir./Phys. Serv., ECF No.
40-4 at 7–14. Simply put, there is no evidence that
Lilly’s death constituted a form of punishment, or
that anything in the County’s Health Services Plan
resembles punishment sufficient to maintain a claim
of constitutional liability. Bell, 441 U.S. at 542.
Boiled down, Plaintiffs other alleged conditions
are that the Defendant nurses’ failure to immediately
send Lilly to a hospital violated Lilly’s constitutional
right. The Court has carefully reviewed all the
summary judgment evidence submitted by all the
Parties and determines that Plaintiffs cannot
establish that the actions of the nurses with respect to
Lilly were “arbitrary or purposeless,” (as opposed to
merely, at most, negligent) to a degree that the
decisions that the nurses made were for the purpose
of inflicting punishment on Lilly. Estate of Henson,
795 F.3d at 463.
The summary judgment evidence establishes
that on October 6, 2014, Nurse Outley was working as
the Medical Intake nurse at the McLennan County
Jail. Outley Aff., ECF No. 40-5 at 1–2. Lilly was
checked into the County Jail at approximately 11:30
a.m. Id. at 2. It is important to note that the summary
judgment evidence establishes that initially Lilly
refused to answer the medical screening questions. Id.
The Court does not note this to ascribe any liability to

18a
Lilly, but to establish that she was being provided
with medical care. Apparently, Lilly made comments
that she wanted to die. Id. Again, the employees
working did not fail to respond, but instead put Lilly
on suicide watch, so that she would be monitored and
observed every fifteen minutes. Id. Plaintiffs have not
controverted the summary judgment evidence that
Outley has proffered that establishes that she was not
aware that Lilly had been tased until Lilly was
brought to the medical intake complaining of pain in
her back and legs at 3:20pm. Id. Outley assessed Lilly
for pain and observed no diaphoresis and Lilly denied
nausea/vomiting and any shortness of breath. Id.
The summary judgment evidence further
establishes that Lilly was well enough to use the
telephone to check on her children and was observed
walking back to her cell. Id. At approximately 5:20
p.m., Lilly was brought to the medical intake
complaining of chest pain and left arm pain. Id. The
summary judgment evidence establishes that this
was the first time Outley became aware of Lilly
complaining about chest pain. Id. After Lilly made a
complaint of chest pain, the staff performed an EKG
on Lilly. Id. The summary judgment evidence
establishes that Outley did not see the results of the
EKG, nor was she made aware of what the EKG
revealed about Lilly’s condition. Id. at 3. Outley was
told by Defendant Roberts that another EKG needed
to be performed on Lilly. Id. Outley had no further
dealings with Lilly. Id. at 2. The Court holds, as a
matter of law that Outley’s actions could not
constitute the infliction of punishment on Lilly;
therefore, the County cannot be held liable for her
conduct.
It is also undisputed that Defendant Roberts

19a
did not contact Dr. Wells after the first EKG. Id.
However, she did order an additional EKG to be taken
within a relatively short period of time. Id. Several
hours later, Roberts contacted Dr. Wells to discuss
Lilly’s situation and inform him that the second EKG 6
had been performed on Lilly. Dr. Wells Dep., ECF No.
40-2 at 11. Neither Defendant Roberts nor any of the
nurses discussed with Dr. Wells whether Lilly should
be sent to the hospital. Id. at 11–12. Roberts sent the
EKGs to Dr. Wells for his review. Id. at 11. Dr. Wells,
after reviewing the EKGs, did not instruct the medical
staff to send Lilly to the hospital. Riendfliesch Aff.,
ECF Nos. 40-1 at 2–3; Dr. Wells Dep., 40-2 at 12–13.
Unlike the nurses, Dr. Wells, as a trained medical
doctor, was fully capable of reading the EKGs and the
Court determines that the fact that he was given the
EKGs and asked to review them establishes that there
was no deliberate act by either nurse to deny Lilly
from obtaining medical treatment. Additionally, Lilly
was not subjected to a policy of deliberate indifference
It appears that the second EKG was actually the
third EKG performed on Lilly. See Riendfliesch Aff.,
ECF No. 44- 1 at 40; Pl. Mot. Summ. J., ECF No. 44 at
5. However, the third EKG was conducted right after the
second and it appears that the results from the second
EKG are unavailable and not in the record. PL. Mot.
Summ. J., ECF No. 44 at 5. It also appears that
Defendants themselves refer to the third EKG as the
second EKG because it was the second EKG that was
taken in quick succession. Tex. Rangers’ Report, ECF
No. 44-1 at 40–42. Therefore, to avoid confusion, this
Court will continue to refer to the third EKG as the
“second EKG” as that is how it is referred to by most
parties.

6

20a
that resulted in her injury.
While Plaintiffs have alleged that Nurses
Trinecha Outley and Kimberly Riendfliesch did not
send Lilly to the hospital because they had not
received approval from Dr. Wells to do so; Plaintiffs
are unable to rebut the summary judgment evidence
that establishes that the nurses had no knowledge of
any substantial risk of serious harm to Lilly which
required immediate additional attention and/or
transport to the hospital. Additionally, Plaintiffs are
unable to rebut Defendants’ evidence that Nurses
Outley and Riendfliesch believed there was no reason
to contact Dr. Wells and seek his approval to send
Lilly to the hospital. Plaintiffs have not proffered
summary judgment evidence to rebut the evidence
proffered by Nurses Outley and Riendfliesch that they
had no knowledge or understanding that Lilly’s
condition was life-threatening at the time.
The
unrebutted
summary
judgment
establishes that neither Outley nor Riendfliesch had
been trained to interpret EKGs (the most critical
element of Plaintiffs’ claim of wrongful conduct
against them). Outley Aff., ECF Nos. 40-5 at 3;
Riendfliesch Aff., 40-1 at 2–3. The summary judgment
evidence establishes that they were relying on others
who could interpret Lilly’s EKGs to provide a
diagnosis of Lilly’s condition. Dr. Wells Dep., ECF
Nos. 40-2 at 12–13; Riendfliesch Aff., 40-1 at 2–3.
Thus, either of the nurses may or may not have been
negligent by failing to appreciate that the EKGs could
have been read to indicate that Lilly should be sent
immediately to the hospital. However, the nurses’
failure to perform a medical task that they were not
trained to do cannot be deliberate indifference. The
fact that on one occasion an inmate perished (possibly)

21a
because of the failure of these two nurses to have that
training is insufficient to establish that the County
had a policy that violated Lilly’s constitutional rights
or was a subterfuge for punishment.
Moreover, the offensive summary judgment
evidence submitted by the nurse Defendants calls
into question whether Plaintiffs could even establish
a negligence claim. The unrebutted summary
judgment evidence establishes that Defendant
Roberts, who was a Director of Nursing (“DON”),
reviewed the first EKG and elected not to send Lilly
to the hospital because, in her opinion, the EKG
reading was inaccurate and another EKG was
needed. Outley Aff., ECF No. 40-5 at 2. It is not this
Court’s role in a § 1983 case to determine whether or
not her decision was negligent. Perhaps (but only
perhaps) a refusal to provide Lilly with an EKG at
all might raise constitutional issues. However, in
this case Lilly was attended to and given three
separate EKGs. This is evidence of medical care
being provided, and not evidence of a denial that
would constitute punishment.
Based on the above reasoning, the Court finds
that there is no credible summary judgment evidence
that an alleged practice, rule, or policy of the County
of not sending inmates to the hospital without the
approval of Dr. Wells violated Lilly’s constitutional
rights. Furthermore, there is also no credible
summary judgment evidence that any alleged
practice, rule, or policy of medical intake personnel
that allowed the personnel to perform medical
intakes of inmates while failing to medically clear
inmates and failing to inform the supervising doctor
that the inmates had not been medically cleared
violated Lilly’s constitutional rights. Finally, there is

22a
also no credible summary judgment evidence that
Lilly’s constitutional rights were violated by any
alleged policy, practice, or custom that permitted
Lilly to be transferred to the County Jail without
ensuring that the proper personnel were informed
that she had been tased, tested positive for
methamphetamine
and
amphetamine,
and
complained of chest pain. Therefore, the Court
GRANTS the Motion for Summary Judgment in
favor of the McLennan County on this issue.
b. Episodic act or omission claim
against McLennan County

Although Plaintiffs have not expressly alleged
an episodic act or omission claim against the County,
to the extent Plaintiffs’ factual allegations can be
construed as asserting such a claim, the claim fails
and must be dismissed because Plaintiffs cannot
establish that the County was deliberately indifferent
to a serious medical need of Lilly. Additionally,
Plaintiffs cannot establish that any alleged deliberate
indifference was the result of an existing policy,
custom, or practice of the County maintained with
objective deliberate indifference to the detainee’s
constitutional rights.
Pretrial detainees are protected by the Due
Process Clause of the Fourteenth Amendment. Cupit
v. Jones, 835 F.2d 82, 84–85 (5th Cir. 1987). To
succeed in a § 1983 action based on “episodic acts or
omissions” in violation of Fourteenth Amendment
rights, a pretrial detainee must show subjective
deliberate indifference by the defendants. Hare, 74
F.3d at 643. That is, the plaintiff must show that the
official knew of and disregarded a substantial risk of

23a
serious harm. Domino, 239 F.3d at 755. “Actions and
decisions by officials that are merely inept, erroneous,
ineffective, or negligent do not amount to deliberate
indifference.” Alton v. Tex. A&M Univ., 168 F.3d 196,
201 (5th Cir. 1999). To prove its case, Plaintiffs must
establish that the County was deliberately indifferent
to a serious medical need of Lilly, or that such alleged
deliberate indifference was the result of an existing
policy, custom, or practice of the county maintained
with objective deliberate indifference to the detainee’s
constitutional rights.
In an episodic act or omission claim, “the
complained-of harm is a particular act or omission of
one or more officials.” Scott v. Moore, 114 F.3d 51, 53
(1997) (en banc). A plaintiff in an episodic act or
omission case “complains first of a particular act of, or
omission by, the actor and then points derivatively to
a policy, custom, or rule (or lack thereof) of the
municipality that permitted or caused the act or
omission.” Id. To prevail on an episodic act or omission
case against an individual defendant, a pretrial
detainee must establish that the defendant acted with
subjective deliberate indifference to the person’s
constitutional rights. Id.
A person acts with subjective or deliberate
indifference if (1) “he knows that an inmate faces a
substantial risk of serious bodily harm,” and (2) “he
disregards that risk by failing to take reasonable
measures to abate it.” Anderson v. Dallas Cty., Tex.,
286 F. App’x. 850, 860 (5th Cir. 2008) (citing Gobert,
463 F.3d at 346). The official’s conduct must
demonstrate subjective awareness of a substantial
risk of serious harm and a failure to take reasonable
measures to abate this risk. Domino, 239 F.3d at 756.
Negligent conduct does not rise to the level of a

24a
constitutional violation. Daniels v. Williams, 474 U.S.
327,
333–34
(1986).
When
the
alleged
unconstitutional conduct involves an episodic act or
omission, the question is whether the state official
acted with deliberate indifference to the person’s
constitutional rights. Gibbs v. Grimmette, 254 F.3d
545, 548 (5th Cir. 2001).
The deliberate indifference standard is an
obligation not to disregard any substantial health risk
about which government officials are actually aware.
Easter v. Powell, 467 F.3d 459, 463–64 (5th Cir. 2006).
To reach the level of deliberate indifference, official
conduct must be “wanton,” which is defined to mean
“reckless.” Johnson v. Treen, 759 F.2d 1236, 1238 (5th
Cir. 1985). Under § 1983, officials are not vicariously
liable for the conduct of those under their supervision.
Mouille v. City of Live Oak, 977 F.2d 924, 929 (5th Cir.
1992). Supervisory officials are accountable for their
own acts of deliberate indifference and for
implementing unconstitutional policies that causally
result in injury to the plaintiff. Id.
To establish liability based on a delay in
medical treatment, a plaintiff must show deliberate
indifference to serious medical needs that resulted in
substantial harm. Easter, 467 F.3d at 464. A plaintiff
can show deliberate indifference by showing that an
official “refused to treat him, ignored his complaints,
intentionally treated him incorrectly, or engaged in
any similar conduct that would clearly evince a
wanton disregard for any serious medical needs.” Id.
The pain suffered during a delay in treatment can
constitute a substantial harm and form the basis for
an award of damages. Id. at 464–65. “A serious
medical need is one for which treatment has been
recommended or for which the need is so apparent

25a
that even laymen would recognize that care is
required.” Gobert, 463 F.3d at 345 n.12.
The Fifth Circuit has further defined deliberate
indifference as requiring the plaintiff to show: (1) an
unusually serious risk of harm existed; (2) the
defendant had actual knowledge of, or was willfully
blind to, the elevated risk; and (3) the defendant failed
to take obvious steps to address the risk. See Leffall,
28 F.3d at 530 (quoting Manarite v. City of
Springfield, 957 F.2d 953, 956 (1st Cir. 1992)).
Deliberate indifference should not be viewed as
heightened negligence. Negligent conduct does not
rise to the level of a constitutional violation. Daniels,
474 U.S. at 333–34. Deliberate indifference cannot be
inferred from a negligent or even grossly negligent
reaction to a substantial risk of harm. Hare, 74 F.3d
at 645, 649. “The “deliberate indifference” standard
is a stringent standard of fault, requiring proof that
a municipal actor disregarded a known or obvious
consequence of his action. Bd. of Cty. Comm’rs of
Bryan Cty., Okl. v. Brown, 520 U.S. 397, 410 (1997)
Plaintiffs relies heavily on the Eleventh Circuit
case of Mandel v Doe, 888 F.2d 783 (11th Cir. 1989).
The Court finds that this reliance is unwarranted. In
Mandel, the Court found deliberate indifference, but
on facts much different than the ones presented in
this case. The Court wrote:
Indeed, the evidence here is much
more demonstrative of deliberate
indifference than that shown in
Carswell. The evidence indicates that
Hatfield
exhibited
complete
indifference to Mandel’s worsening
condition. Hatfield callously and

26a
cavalierly
ignored
repeated
indications from Mandel and his
parents that the patient’s condition
was far more serious than his two
different
diagnoses—bone
inflammation
and
muscle
inflammation—suggested.
Mandel
had to wait fifteen days after
submitting his first request for
treatment before even seeing Hatfield.
Only after three requests had been
filed, twenty days had passed, and a
prison guard (who had witnessed
Mandel’s leg collapse) had intervened
on Mandel's behalf, did Hatfield
conduct an extensive examination,
offer his first diagnosis and prescribe
any form of medication and treatment.
Hatfield saw Mandel dragging his leg
behind him on more than one occasion,
and he conducted an examination in
which he watched Mandel scream in
pain from the movement of his injured
leg. In response to mounting evidence
that the injured leg was not
improving,
and,
indeed,
was
deteriorating, Hatfield refused to
allow Mandel to see a doctor or to go to
a hospital. Hatfield refused to perform
an X- ray of the injured leg and stated
that he would never order an X-ray.
During the course of treatment
Hatfield twice ordered that Mandel be
removed from the general population
and placed in an isolated six-by-eight

27a
cell with no water or toilet facilities.
Finally, when Mandel’s mother,
concerned that her son was not
receiving even rudimentary care,
asked that her son be seen by a doctor,
Hatfield laughed at her and reiterated
his refusal.
Id. at 789.
Other cases where a constitutional deprivation
was found fit the same pattern. In Montano the Court
wrote:
There can be no denying Mr. Montano
was
punished.
The
record
demonstrates the county denied him
medical care with the expectation that
he would heal himself. Witnesses
testified the county failed to check his
vital signs more than once in almost
four-and-one-half days. The county
disregarded state standards to search
the Texas mental-health-treatment
database for pertinent records that
would have pointedly informed
responsible care. Despite knowing Mr.
Montano hardly ate or drank for
almost four-and-one-half days, the
county did nothing more than
continue depositing food in the bubble.
The evidence shows there was no
mistaking
Mr.
Montano’s
dehydration: one observing LVN
testified, “every time I tried to give
[water] to him, he would take a sip and

28a
then throw it on the wall and say it
was poisoned”.
These denials were not the result of
negligent
staff—as
the
county
maintains, seeking to avoid liability—
but the result of the county’s wellknown and uniformly- practiced de
facto policy.
Montano v. Orange Cty., Texas, 842 F.3d 865, 878
(5th Cir. 2016)
Unlike the events in the present case, the
plaintiffs in these other cases established either a
depraved indifference by prison staff or an
unconstitutional policy. The Mandel court notes that
when the need for treatment is obvious, medical care
which is so cursory as to amount to no treatment at
all may amount to deliberate indifference. 888 F.2d at
789. This Court has carefully reviewed the myriad of
“facts” that have been supplied by the Parties and
finds that despite the tragic nature of what occurred,
the Defendants have established that the standard of
deliberate indifference cannot be met by Plaintiffs.
Furthermore, to impose liability on a municipal
defendant for the constitutional violation, the pretrial
detainee “must show that the municipal employee’s
act resulted from a municipal policy or custom
adopted or maintained with objective deliberate
indifference to the detainee’s constitutional rights.”
Scott, 114 F.3d at 54; Piotrowski v. City of Houston,
237 F.3d 567, 579 (5th Cir. 2001); see also Sibley v.
Lemaire, 184 F.3d 481, 488 (5th Cir.1999) (requiring
plaintiff to show objective deliberate indifference “[t]o
hold superiors liable”). A municipality acts with

29a
deliberate indifference where its policymakers
promulgate or fail to promulgate a policy or custom,
despite the known or obvious consequences that
constitutional violations will result. Piotrowski, 237
F.3d at 579. Objective indifference “considers not only
what the policy maker actually knew, but what he
should have known, given the facts and circumstances
surrounding the official policy and its impact on the
plaintiff’s rights.” Corley v. Prator, 290 F. App’x. 749,
750 (5th Cir. 2008) (citing Lawson v. Dallas Cty., 286
F.3d 257, 264 (5th Cir. 2002)).
Plaintiffs must identify an official policymaker
with actual or constructive knowledge of the
constitutional violation that acted on behalf of the
municipality. Zarnow v. City of Wichita Falls, Tex.,
614 F.3d 161, 167 (5th Cir. 2010) (citing Cox v. City
of Dallas, Texas, 430 F.3d 734, 748–49 (5th Cir.
2005)). A policymaker is “one who takes the place of
the governing body in a designated area of city
administration.” Zarnow, 614 F.3d at 167 (citing
Webster v. City of Houston, 735 F.2d 838, 841 (5th Cir.
1984) (en banc)). The person must “decide the goals
for a particular city function and devise the means of
achieving those goals.” Bennett v. City of Slidell, 728
F.2d 762, 769 (5th Cir. 1984). The fact that an official’s
decisions are final is insufficient to demonstrate
policymaker status. Zarnow, 614 F.3d at 167. “The
finality of an official’s action does not therefore
automatically lend it the character of a policy.” Bolton
v. City of Dallas, 541 F.3d 545, 550 (5th Cir. 2008). For
a municipality to be liable, the decision (whether or
not one of policy) must be made by an official with
final policymaking authority in respect to the matter
decided:

30a
‘Municipal liability attaches only
where the decisionmaker possesses
final authority to establish municipal
policy with respect to the action
ordered. [footnote omitted] The fact
that a particular official—even a
policymaking official—has discretion
in the exercise of particular functions
does not, without more, give rise to
municipal liability based on an
exercise of that discretion. [citation
and footnote omitted] The official
must also be responsible for
establishing final government policy
respecting such activity before the
municipality can be held liable.’
Jett v. Dallas Ind. School Dist., 7 F.3d 1241, 1246–
47 (5th Cir. 1993) (quoting Pembaur v. City of
Cincinnati, 475 U.S. 469, 481–82 (1986)).
Plaintiffs maintain that Dr. Wells had
instituted a policy that the nurses were not permitted
to send Lilly to the hospital which resulted in Lilly’s
death. Pl. Mot. Summ. J., ECF No. 43 at 15. Plaintiffs
maintain that this made Dr. Wells the public official
who had policymaking authority, which in turn would
create liability for the County if his policy were the
cause of the Lilly’s denial of constitutional rights. Id.
at 10–12. In analyzing the question of whether a
public official has policymaking authority, the Fifth
Circuit
has
distinguished
between
“final
decisionmaking authority and final policymaking
authority.” Bolton, 541 F.3d at 548. “[A]n official
whose discretionary decisions on a particular matter
are final and unreviewable, meaning they can’t be

31a
overturned, is constrained if another entity has
ultimate power to guide that discretion, at least
prescriptively, whether or not that power is
exercised.” Barrow v. Greenville Indep. Sch. Dist.,
480 F.3d 377, 382 (5th Cir. 2007). “The finality of an
official’s action does not therefore automatically lend
it the character of a policy.” Bolton, 541 F.3d at 550.
The Court finds as a matter of law that
Plaintiffs have failed to establish that it was the
physician who was the final policymaker at the
McLennan County Jail, and the summary judgment
evidence proffered by the Defendants establishes the
contrary. Plaintiffs’ theory, boiled down, is that Dr.
Wells’ failure to have his medical staff more quickly
send Lilly to the hospital (and their failure to act
without his permission to do so) is tantamount to a
policy of the hospital and the County. Even if
Plaintiffs were to prove that Dr. Wells had the
ultimate authority and discretion to make medical
decisions at the County Jail, it would be insufficient
to establish that he was the ultimate policymaker.
This authority, even if it existed, would only make Dr.
Wells a final decisionmaker, not a final policymaker.
This is established by the unrebutted evidence that
Dr. Wells did not have authority to hire or fire nurses
and medical personnel at the County Jail or to impose
discipline. McNamara Aff., ECF No.40-4 at 2. That
authority rested exclusively with the Sheriff. Id. The
Court also notes that Dr. Wells has proffered sworn
evidence that the nurses had the authority and
discretion to send an inmate to the hospital, if needed,
without his approval. Dr. Wells Dep., ECF No. 40-2 at
9–10. However, the Court bases its decision in this
Order on its analysis that Dr. Wells was not the
policymaker.

32a
The summary judgment evidence establishes
that at the time of the Lilly’s death it was the policy
of the County to provide medical care and treatment
to the inmates confined at the McLennan County Jail.
McNamara Aff., ECF No. 40-4 at 2. The County and
the County Jail had a Health Service Plan which
required the providing of medical care and if needed,
emergency medical treatment, to the inmates at the
County Jail on a twenty-four-hour basis, seven days
per week. Id. The plan further provided that no
County Jail staff or other employee shall be
deliberately indifferent to a serious medical need of an
inmate. Id. There is no evidence that the
Commissioners Court ever ceded its policymaking
authority to Dr. Wells or to anyone else. While the day
to day operations of the facility may have been turned
over to Dr. Wells to exercise as he determined best,
Texas law is quite clear. The Commissioners Court of
the County must provide safe and suitable jails for the
County. Tex. Loc. Gov’t Code. 351.001. No employee,
even one as highly trained or placed as Dr. Wells,
could be given the right to be the keeper of the County
Jail, state law requires that that power reside in the
County Sheriff. Id. at 351.041. The County Sheriff is
the policymaker for the jail system. Turner v. Upton
County, Texas, 915 F.2d 133, 136 (5th Cir. 1990).
Thus, Plaintiffs must proffer sufficient
evidence to rebut Defendants’ contention that the
County Sheriff, Parnell McNamara had not
implemented, nor was he aware of, any policy of not
sending inmates, who were in serious need of medical
care, to the hospital without Dr. Wells’ approval.
Plaintiffs have failed to do so. Plaintiffs have not
presented evidence, nor can they, that McLennan
County’s Commissioners Court or the County Sheriff

33a
implemented and/or had knowledge of any policy or
practice that an inmate at the County Jail in serious
need of medical attention cannot be sent to the
hospital without Dr. Well’s approval. The County is
liable only if Plaintiffs can establish that the County’s
policymaker for the County Jail had knowledge of any
such policy or practice and condoned it or allowed it to
continue. No such evidence exists. Since Sheriff
McNamara became the McLennan County Sheriff in
2013, no court has entered a judgment against the
County for denial of medical care to inmate, so
Plaintiffs cannot establish a policy or pattern of
deliberate indifference in that manner. Also, there can
be no liability under a practice or pattern theory
because the unrebutted summary judgment evidence
shows that since Dr. Wells has worked at the County
Jail there have been no inmate deaths stemming from
sufficiently similar circumstances as those alleged in
this case. Dr. Wells Dep., ECF No. 40-2 at 9–10.
The Court also rejects Plaintiffs’ contention
that the County is liable on the basis that Dr. Wells
failed to properly train or supervise. To succeed on
such a claim, Plaintiffs must show that Dr. Wells was
deliberately indifferent to the training/supervision of
the nurses. The summary judgment evidence
established that Dr. Wells believed the nurses to be
trained and that the nurses understood that they had
the ability to send inmates to the hospital when
necessary without his approval. Dr. Wells Dep., ECF
Nos. 40-2 at 3–4, 5–10, 14; 40-3 at 2–3, 5–6. There is
also unrebutted summary judgment evidence that Dr.
Wells and his nurses met for training once a month
and that he informed them of this ability. Dr. Wells
Dep., ECF No. 40-2 at 6–7. In this case, there is no
evidence that the nurses deferred in sending Lilly to

34a
the hospital because Dr. Wells was unavailable to give
them permission; rather, they were in contact with
him and he gave them directions about the medical
care to provide to Lilly, which the nurses followed.
For the reasons set forth above, the Court finds
that the County is entitled to Summary Judgment and
hereby GRANTS its Motion, (ECF No. 37). For all the
reasons that the Court grants the County’s motion, it
finds that Plaintiffs’ Motion for Summary Judgment
is without merit. Therefore, Plaintiffs’ Motion for
Summary Judgment Against Defendant McLennan
County is DENIED, (ECF No. 43).
II.

Defendant Desara Roberts’ Motion for
Summary Judgment

Defendant Desera Roberts, R.N., seeks a
summary judgment with respect to the §1983 claim
alleged against her because the undisputed facts
reflect no evidence of deliberate indifference on
Roberts’ part in the provision of health care to Lilly.
The Court finds that the undisputed facts, established
by the summary judgment evidence, proves that
Nurse Roberts’ actions reflected more than sufficient
care for Lilly.
Governmental officials are protected from suit
and liability by qualified immunity unless their
alleged conduct: (1) violated a Constitutional or
statutory right; and (2) the illegality of the alleged
conduct was clearly established at the time of the
violation. District of Columbia v. Wesby, 138 S.Ct. 577,
589 (2018) (citing Reichle v. Howards, 566 U.S. 658,
664 (2012)). There are two well-established steps in
the qualified immunity analysis: a court decides “(1)
whether the undisputed facts and the disputed facts,

35a
accepting the plaintiff’s version of the disputed facts
as true, constitute a violation of a constitutional right;
and (2) whether the defendant’s conduct was
objectively reasonable in light of clearly established
law.” Carroll v. Ellington, 800 F.3d 154, 169 (5th Cir.
2015).
A prisoner’s constitutional rights are violated
when prison doctors or officials are deliberately
indifferent to the prisoner’s serious medical needs.
Estelle, 429 U.S. at 103. 7 Deliberate indifference
cannot be inferred from a negligent or grossly
negligent response to a substantial risk of harm. Hare,
74 F.3d at 645, 649; Thompson, 245 F.3d at 459.
“Deliberate indifference” describes a state of mind
more blameworthy than negligence. Farmer, 511 U.S.
at 835. The “deliberate indifference” standard is a
stringent standard of fault, requiring proof that a
municipal actor disregarded a known or obvious
consequence of his action. Brown, 520 U.S. at 410. A
defendant must have been aware of a risk of harm and
disregarded that risk by failing to take reasonable
steps to prevent it. Hare, 74 F.3d at 648–49.
To show deliberate indifference, a plaintiff
must provide facts that a defendant “refused to treat
him, ignored his complaints, intentionally treated him
incorrectly, or engaged in any similar conduct that
would clearly evince a wanton disregard for any
serious medical needs.” Gobert, 463 F.3d at 346
The Court notes that the time the events of this case
occurred, Lilly was a pre-trial detainee and not a prisoner.
However, the same deliberate indifference analysis applies
to both pre-trial detainees and prisoners in regards to
whether there was adequate medical care for the individual
in custody. See Wagner v. Bay City, Tex., 227 F.3d 316, 324
(5th Cir. 2000).
7

36a
(quoting Domino, 239 F.3d at 756). Plaintiffs cannot
meet this standard based on the record established by
the filing of the cross motions for summary judgment
and the supporting evidence. However negligent, or
even grossly negligent, a response may subsequently
seem, the Court is mindful of the “significant
distinction between a tort and a constitutional
wrong.” Lefall, 28 F.3d at 532. In the Fifth Circuit, a
person is not deliberately indifferent if they take some
reasonable steps to address a risk of harm. Hare, 74
F.3d at 648–49. It is irrelevant whether the steps that
were taken to address a risk of harm were successful
in averting the harm.
The uncontroverted summary judgment
evidence establishes the following conduct on the part
of Defendant Roberts. The events leading to Lilly
being in the custody of McClennan County began on
October 6, 2014, when Lilly attended a 10:30 a.m.
hearing at the McLennan County 19th District
Criminal Court. Pl. Amend. Compl., ECF No. 13 ¶ 20.
The Court ordered her to take a drug test, which
tested positive for the controlled substance of
methamphetamine, so she was ordered to be taken to
County Jail. Id. During her booking at the County
Jail, Lilly was complaining of chest pain. Id. ¶ 27. In
response, nursing staff administered an EKG to Lilly
at approximately 5:55 p.m. Id. ¶ 31. Defendant
Roberts was serving as the Director of Nursing at the
County Jail at that time. Roberts Aff., ECF No. 36 at
20; Pl. Amend. Compl., ECF No. 13 ¶ 35. At
approximately 6:30 p.m., the nurses treating Lilly
asked Roberts to review an EKG that had been
performed on Lilly. Roberts Aff., ECF No. 36 at 20.
Defendant Roberts inquired about the
circumstances surrounding the administration of the

37a
EKG on Lilly, and she was told by the nurses that
Lilly was uncooperative, talking, moving, and
breathing hard during the EKG’s administration. Id.
Roberts proffered unrebutted summary judgment
evidence that she interpreted the EKG results as
showing movement in the leads and a possible ST
elevation. Id. There is no evidence that any nurse
treating Lilly informed Roberts that there were other
signs of a heart attack, such as diaphoresis,
nausea/vomiting, or elevated vital signs. Id.
Defendant Roberts did not then act with deliberate
indifference; rather, she ordered that the EKG be
repeated on Lilly to be certain of the results prior to
sending it to Dr. Wells. Id. The reason Roberts offers
for seeking a second EKG is that she believed that
movement in the leads and talking during the EKG
could have produced a false reading. Id. As will be
discussed below, the Court notes that the standard for
liability that Plaintiffs must prove is not whether
Roberts took the correct medical action or made the
correct medical decision; rather, the standard is
whether she acted with such indifference as to amount
to a violation of Lilly’s constitutional rights.
Defendant Roberts directed the nursing staff
treating Lilly to repeat the EKG on Lilly when Lilly
had calmed down. Pl. Amend. Compl., ECF No. 13 ¶
35. Roberts left work at the end of her shift, but did
not terminate communications with her staff and has
proffered unrebutted summary judgment evidence
that she expected to receive the results of the second
EKG performed on Lilly shortly thereafter. Roberts
Aff., ECF No. 36 at 20. Roberts received a phone call
from Kim Riendfliesch, at approximately 8:04 p.m.,
indicating the second EKG performed on Lilly was

38a
completed. 8 Id. Roberts instructed Nurse Riendfliesch
to take the two EKGs to Lieutenant Ward at the
booking area so he could take photos of them with his
cell phone and forward them via text message to
Roberts. Id. at 20, 35. At approximately 8:07 p.m.,
Roberts called Lt. Ward and explained her
instructions to Nurse Riendfliesch regarding the
EKGs. Id. 20–21, 35. Lt. Ward agreed to send the
pictures of the EKGs to Roberts. Id. At approximately
8:09 p.m., Roberts phoned Dr. Wells, the medical
director at the McLennan County Jail, and explained
what she knew about Lilly’s condition to Dr. Wells. Id.
at 21, 39. Roberts told Dr. Wells that she would send
the photos of the EKGs performed on Lilly to Dr. Wells
when she received them. Id.
At approximately 8:12 p.m., Roberts phoned
the County Jail and spoke with Riendfliesch, who
informed Roberts that Lilly’s second EKG looked
similar to the first EKG. Id. at 21. Again, Defendant
Roberts did not act with indifference; rather, Roberts
concluded that Lilly needed medication and ordered
As noted above, it appears that the second EKG
was actually the third EKG performed on Lilly. See
Riendfliesch Aff., ECF No. 44-1 at 40; Pl. Mot. Summ. J.,
ECF No. 44 at 5. However, the third EKG was conducted
right after the second and it appears that the results from
the second EKG are unavailable and not in the record. Pl.
Mot. Summ. J., ECF No. 44 at 5. It also appears that
Defendants themselves refer to the third EKG as the
second EKG because it was the second EKG that was
taken in quick succession. Tex. Rangers’ Report, ECF No.
44-1 at 40–42. Therefore, to avoid confusion, this Court
will continue to refer to the third EKG as the “second
EKG” as that is how it is referred to by most parties.
8

39a
Nurse Riendfliesch to give Lilly 324 mg of chewable
aspirin, a 0.4 nitroglycerin sublingual, and to recheck
Lilly five minutes thereafter. Pl. Amend. Compl., ECF
No. 13 ¶ 40. Roberts also discussed her concerns with
Riendfliesch regarding the necessity for Lilly to have
good blood pressure due to the fact that nitroglycerin
could lower Lilly’s blood pressure. Roberts Aff., ECF
No. 36 at 21. Roberts further instructed that Lilly be
moved to the medical department at the County Jail
so she could be more closely monitored. Id. Lilly was
placed on a 15- minute watch in a cell in the medical
department. Pl. Amend. Compl., ECF No. 13 ¶ 44. At
approximately, 8:23 p.m., Roberts received the two
EKG pictures on her cell phone, which she
immediately forwarded to Dr. Wells’ cell phone
because Roberts felt that Lilly might be having a
cardiac event due to the ST elevation being present in
the second EKG. Roberts Aff., ECF No. 36 at 21. At
approximately 8:36 p.m., having not heard back from
Dr. Wells, Roberts called Dr. Wells and spoke with
him to verify that he had received the two EKG photos
regarding Lilly. Id. at 22. She also informed Dr. Wells
that she had ordered a nurse at the County Jail to
administer aspirin and nitroglycerin to Lilly. Id. Dr.
Wells indicated he would check his phone for the
photos of the EKGs. Id.
At approximately 8:39 p.m., Roberts received
a call from Dr. Wells acknowledging his receipt of the
photos of the EKGs. Id. Dr. Wells indicated he
intended to call the County Jail and speak directly
with the nurses treating Lilly. Id. Roberts identified
Nurse Riendfliesch as the person Roberts had been
in communication with regarding Lilly’s condition
and gave Dr. Wells her extension at the County Jail.
Id. At approximately 9:26 p.m., Roberts called the

40a
County Jail and learned from Nurse Smith that they
were in the midst of an emergency. Id. Roberts
acknowledges that she presumed the emergency
involved Lilly. Id. At approximately 9:34 p.m., Nurse
Smith phoned Roberts and told her that Lilly was
found unresponsive in a medical cell and staff had
called EMS to transport Lilly to the hospital. Id. at
23.
At approximately 9:36 p.m., Roberts phoned
Dr. Wells to update him on Lilly’s medical status and
she told him that Lilly was being sent to the hospital
via EMS. Id. Dr. Wells informed Roberts that he had
spoken with Nurse Riendfliesch and was awaiting an
updated evaluation on inmate Lilly from the other
nurses. Id at 23, 38. There is no evidence that at any
point during the day Defendant Roberts expressed
any evidence of callous or deliberate indifference to
Lilly’s medical condition. Id. 45–46. Despite that, at
approximately 10:23 p.m., Roberts phoned the
hospital emergency room and was told an inmate
that had been taken there had died at 10:14 p.m. Id.
at 23. At approximately 10:25 p.m., Roberts phoned
Dr. Wells to advise him of Lilly’s death at the
hospital. Id. Lilly’s subsequent autopsy concluded
Lilly died as a result of atherosclerotic coronary
heart disease, indicating that the “toxic effects of
methamphetamine contributed to the cause of
death.” Pl. Amend. Compl., ECF No. 13 ¶ 53.
The facts as set forth above are important for
several reasons. First, they establish that Roberts
was not neglecting Lilly. Rather, Defendant Roberts
ordered two EKGs, monitored the test results from
others, and interfaced with Dr. Wells concerning the
care and treatment of Lilly. Second, the facts
establish that Roberts was not making an

41a
independent decision for how to treat Lilly; instead,
she was following the orders of a trained physician.
The brevity of the time between when Defendant
Roberts began working and when Lilly was sent to
the hospital also falls far outside the mainstream of
cases where a jail employee has been found to have
been deliberately indifferent or to have been
“punishing” the inmate. It is clear that Roberts never
terminated contact with the medical staff during the
relatively short period of time that Lilly was in her
care and custody. The Court also expresses no
opinion as to whether any of Defendant Roberts’
conduct might, or might not, constitute negligence,
because that question is irrelevant.
To summarize, Plaintiffs have presented no
evidence that Roberts ignored Lilly’s complaints,
refused to treat Lilly, intentionally treated her
incorrectly, or wantonly disregarded her medical
needs. Roberts properly relied on the information she
was receiving from Defendant Riendfliesch as well as
from Dr. Wells and his diagnosis of Lilly’s condition.
Certainly, given the numerous direct responses,
medical treatments, and assistance that Roberts
provided to Lilly in response to those medical issues
which Roberts was aware, a reasonable official could
have believed that Roberts had complied with her
constitutional obligations regarding the provision of
medical care to inmates. The Court finds that the
provision of medical care to Lilly by Roberts was
in compliance with the McLennan County’s policies
and Dr. Wells’ standing orders and protocols of
providing reasonable medical care to inmates.
Therefore, the Court concludes that Roberts was not
deliberately indifferent to Lilly’s medical condition
and needs and that Roberts’ conduct was objectively

42a
reasonable under clearly established law. Thus,
Defendant Roberts is entitled to qualified immunity
and dismissal of Plaintiffs’ claim.
Therefore, the Court GRANTS Defendant
Roberts’ Motion for Summary Judgment, (ECF No.
36). For all the reasons that the Court grants the
Roberts’ Motion, it finds that Plaintiffs’ Motion for
Summary Judgment is without merit and DENIES
Plaintiffs’ Motion for Summary Judgment against
Defendant Roberts, (ECF No. 44).
III.

Defendant Kimberly Riendfliesch’s
Motion for Summary Judgment

Defendant Riendfliesch also seeks summary
judgment with respect to Plaintiffs’ § 1983 claims
against her because the undisputed facts reflect no
evidence of deliberate indifference on Riendfliesch’s
part in the provision of health care to Lilly. The Court
agrees with Riendfliesch on this point.
Governmental officials are protected from suit
and liability by qualified immunity unless their
alleged conduct: (1) violated a constitutional or
statutory right; and (2) the illegality of the alleged
conduct was clearly established at the time of the
violation. Wesby, 138 S.Ct. at 589 (citing Reichle, 566
U.S. at 664). There are two well-established steps in
the qualified immunity analysis: a court decides “(1)
whether the undisputed facts and the disputed facts,
accepting the plaintiff’s version of the disputed facts
as true, constitute a violation of a constitutional right;
and (2) whether the defendant’s conduct was
objectively reasonable in light of clearly established
law.” Carroll, 800 F.3d at 169.
A prisoner’s constitutional rights are violated

43a
when prison doctors or officials are deliberately
indifferent to the prisoner’s serious medical needs.
Estelle, 429 U.S. at 103 (1976). 9 Deliberate
indifference cannot be inferred from a negligent or
grossly negligent response to a substantial risk of
harm. Hare, 74 F.3d at 645, 649; Thompson, 245 F.3d
at 459. “Deliberate indifference” describes a state of
mind more blameworthy than negligence. Farmer,
511 U.S. at 835. The “deliberate indifference”
standard is a stringent standard of fault, requiring
proof that a municipal actor disregarded a known or
obvious consequence of his action. Brown, 520 U.S. at
410. A defendant must have been aware of a risk of
harm and disregard that risk by failing to take
reasonable steps to prevent it. Hare, 74 F.3d at 648–
49.
To show deliberate indifference, a plaintiff
must provide facts that a defendant “refused to treat
him, ignored his complaints, intentionally treated him
incorrectly, or engaged in any similar conduct that
would clearly evince a wanton disregard for any
serious medical needs.” Gobert, 463 F.3d at 346
(quoting Domino, 239 F.3d at 756). Plaintiffs cannot
meet this standard based on the record established by
the filing of the cross motions for summary judgment
and the supporting evidence. However negligent, or
even grossly negligent, a response may subsequently
As noted in a previous footnote, at the time the
events of this case occurred, Lilly was a pre-trial detainee
and not a prisoner. However, the same deliberate
indifference analysis applies to both pre-trial detainees
and prisoners in regards to whether there was adequate
medical care for the individual in custody. See Wagner v.
Bay City, Tex., 227 F.3d 316, 324 (5th Cir. 2000).
9

44a
seem, the Court is mindful of the “significant
distinction between a tort and a constitutional
wrong.” Lefall, 28 F.3d at 532. In the Fifth Circuit, a
person is not deliberately indifferent if they take some
reasonable steps to address a risk of harm. Hare, 74
F.3d at 648–49. It is irrelevant whether the steps that
were taken to address a risk of harm were successful
in averting the harm.
In this case, Defendant Kimberly Riendfliesch
was an intake nurse (a licensed vocational nurse or
“LVN”) on duty when Lilly reported feeling ill at
McLennan County Jail and was taken to medical
intake. Riendfliesch Aff., ECF No. 40-1 at 1. It
appears to be undisputed from the summary
judgment evidence that Riendfliesch arrived at work
at 6:45 to begin her shift as intake nurse. Id. at 2. She
was informed that Lilly had complaints concerning
chest pain and that an EKG had been performed on
Lilly. Id. She was informed that the staff was
instructed to perform the second EKG 10 during her
shift, which she did at approximately 8:00 pm. Id. It
is important to note that in determining whether she
acted with deliberate indifference, the summary
judgment evidence establishes that as a licensed
vocational nurse, Riendfliesch had been trained to
perform EKGs but had not been trained how to
interpret EKG results. Id. Riendfliesch had not been
trained to nor did she have the expertise to make a
diagnosis based on an EKG. Id. at 3. Her only
obligation was to perform the EKGs and provide the
As noted above, Riendfliesch really performed two
more EKGs; however, the third EKG is being referred to as
the “second EKG.”
10

45a
information to the appropriate medical staff. Id.
Rather
than
exhibiting
deliberated
indifference, Riendfliesch then contacted and received
additional instructions from Defendant Roberts
concerning the treatment for Lilly. Id. at 2. She
communicated with Defendant Roberts about the
EKG and told Roberts that the EKG looked similar to
the EKG taken earlier in the day. Id. Defendant
Roberts instructed Riendfliesch to give Lilly four
tablets of 81mg Aspirin and to check her blood
pressure. Id; Pl. Amend. Compl., ECF No. 13 ¶¶ 40,
43. Roberts also told Riendfliesch to give Lilly a 0.4
mg tablet of Nitroglycerin if her blood pressure was
high. Id. Defendant Roberts also instructed
Riendfliesch to take the EKG readings to Lieutenant
Ward so that he could take a picture of them and send
them to Defendant Roberts for review. Riendfliesch
Aff., ECF No. 40-1 at 2. Riendfliesch complied with
these instructions and gave four 81mg Aspirin tablets
to Lilly and checked her blood pressure, which was at
138/90 with a pulse of 88 beats per minute. Id.
Riendfliesch then gave Lilly a 0.4 mg Nitroglycerin
tablet, had her taken to a medical observation holding
cell, and placed her on a 15-minute observation
schedule. Id. Riendfliesch then took the EKG readings
to Lieutenant Ward. Id. After doing that, Riendfliesch
went back and re-checked Lilly’s blood pressure,
which by that time was within normal limits at
120/83, with a pulse of 99 beats per minute. Id. The
summary judgment evidence establishes that at that
point, Lilly was calm and told Riendfliesch that she
wanted to lie down. Id. In response, Riendfliesch told
Lilly to let officers know if she needed anything. Id.
Riendfliesch then returned to her station in the
medical intake room of the County Jail. Id.

46a
At approximately 8:45, Riendfliesch had a
conversation with Dr. Wells about the treatment
regimen for Lilly and informed him of the steps that
she had taken. Id. at 2–3; Pl. Amend. Compl., ECF No.
13 ¶¶ 43–48. Dr. Wells did not instruct her to send
Lilly to the hospital. Id. He did not indicate to her that
Lilly was suffering from a condition that required
immediate emergency care or to take any specific
medical steps. Id. Instead, Dr. Wells asked
Riendfliesch to have the nurses call him so that they
could conduct a further assessment on Lilly. Id. At
about 9:09 p.m., Riendfliesch heard a call that Lilly
appeared to be unresponsive. Riendfliesch Aff., ECF
Nos. 40-1 at 3; Pl. Amend. Compl., 13 ¶ 51. The
medical staff immediately contacted 911 and began
CPR, and Lilly was taken to the hospital where she
was pronounced dead. Riendfliesch Aff., ECF Nos. 401 at 3; Pl. Amend. Compl., 13 ¶ 52. All of this appears
to be undisputed. Therefore, for Plaintiffs to succeed
in a claim against Riendfliesch, Plaintiffs must
establish that her conduct between 6:45 and 9:09 p.m.
amounted to willful indifference.
There is no evidence that Defendant
Riendfliesch had ever encountered a patient who had
suffered from the same type of cardiac distress that
plagued Lilly. Additionally, there is no evidence that
Riendfliesch was personally qualified to review and
access an EKG herself. Plaintiffs’ expert asserts that
Riendfliesch would have known that the second EKG
revealed a condition that required medical attention,
but that is not the correct question. Dr. Dlabal Dep.,
ECF No. 45-5 at 13. The standard to prove a claim for
a constitutional violation is that Riendfliesch did
know what the EKG meant and that she acted with
deliberate indifference in response. All the evidence is

47a
to the contrary. Riendfliesch has proffered summary
judgment evidence that she did not know how to read
an EKG, but she also offered evidence that she
diligently inquired of staff that did know how to read
an EKG. Riendfliesch Aff., ECF No. 40-1 at 2–3. The
Court finds that Plaintiffs’ contention and proffer of
summary judgment proof that Riendfliesch may not
have complied with some professional medical
standard of care raises no fact issue about deliberate
indifference. The Fifth Circuit has specifically held
that any such violations “do not establish deliberate
indifference, which ‘exists wholly independent of an
optimal standard of care.’” Estate of Henson v. Krajca,
440 F. App’x. 341, 345 (5th Cir. 2011) (quoting Gobert,
463 F.3d at 349); see also Kitchen, 759 F.3d at 482
(“The deliberate indifference standard, however, is
not an obligation for government officials to comply
with an ‘optimal standard of care.’”) “Claims founded
on negligence or medical malpractice simply are not
cognizable under 42 U.S.C. §1983.” Jacks, 2018 WL
1363756 at *4 (citing Stewart, 174 F.3d at 534).
While Plaintiffs make much of the fact that Dr.
Wells realized that Lilly might be suffering from a
myocardial infarction, Plaintiffs have not proffered
any evidence that Riendfliesch disregarded any
instruction that was given to her by any of her
superiors, or that she intentionally took any action to
injure Lilly. Defendant Riendfliesch does not dispute
that Dr. Wells told Riendfliesch that Lilly could be
having a myocardial infarction and that he did not tell
Riendfliesch to send Lilly to the hospital. Riendfliesch
Aff., ECF No. 40-1 at 3. Rather, Dr. Wells asked
Riendfliesch to tell the other nurses [after pill pass] to
further assess Lilly’s situation and call him so he
could decide what needed to be done with Lilly. Id. at

48a
2–3. Plaintiffs submitted summary judgment
evidence that Defendant Riendfliesch wondered why
Dr. Wells had not instructed her to call an ambulance,
but otherwise have failed to proffer any evidence that
controverts that the facts as stated above are
accurate. Tex. Rangers’ Report, ECF No. 45-1 at 43.
The facts as set forth above are important for
several reasons. First, they establish that
Riendfliesch was not neglecting Lilly; instead, she
was communicating with Dr. Wells. Second, the facts
establish that Riendfliesch was not making an
independent decision of how to treat Lilly; rather, she
was following the orders of a trained physician. The
brevity of the time between when Defendant
Riendfliesch began working and when Lilly was sent
to the hospital also falls far outside the mainstream of
cases where a jail employee has been found to have
been deliberately indifferent or to have been
“punishing” the inmate. The time between her phone
call with Dr. Wells and Lilly’s apparent cardiac arrest
was less than a half hour. The Court expresses no
opinion as to whether any of Defendant Riendfliesch’s
conduct might constitute negligence because that
question is irrelevant.
To summarize, Plaintiffs have presented no
evidence that Riendfliesch ignored Lilly’s complaints,
refused to treat Lilly, intentionally treated her
incorrectly, or wantonly disregarded her medical
needs. Riendfliesch is entitled to qualified immunity
and the dismissal of Plaintiffs’ claim because her
conduct was objectively reasonable and did not violate
clearly established law. Riendfliesch relied on Dr.
Wells and his diagnosis of Lilly’s condition. Certainly,
given the numerous direct responses, medical
treatment, and assistance that Riendfliesch provided

49a
to Lilly in response to those medical issues which
Riendfliesch was made aware of, a reasonable official
could have believed that Riendfliesch had complied
with her constitutional obligations regarding the
provision of medical care to inmates. The Court finds
that the provision of medical care to Lilly by
Riendfliesch followed McLennan County’s policies and
Dr. Wells’ standing orders and protocols of providing
reasonable medical care to inmates. Therefore, the
Court concludes that Riendfliesch was not
deliberately indifferent to Lilly’s medical condition
and needs and that her conduct was objectively
reasonable under clearly established law. Thus,
Riendfliesch is entitled to qualified immunity and
dismissal of Plaintiffs’ claim.
Therefore, the Court GRANTS Defendant
Riendfliesch’s Motion for Summary Judgment, (ECF
No. 38). Furthermore, for all the reasons that the
Court grants the Riendfliesch’s Motion, it finds that
Plaintiffs’ Motion for Summary Judgment is without
merit and the Court DENIES Plaintiffs Motion for
Summary Judgment Against Defendant Riendfliesch,
(ECF No. 45)
CONCLUSION
IT IS THEREFORE ORDERED that
Defendant McLennan County’s Motion for Summary
Judgment, (ECF No. 37) is GRANTED.
IT IS FURTHER ORDERED that Defendant
Desera Roberts’ Motion for Summary Judgment,
(ECF No. 36) is GRANTED.
IT IS FURTHER ORDERED that Defendant
Kimberly Riendfliesch’s Motion for Summary
Judgment, (ECF No. 38) is GRANTED.

50a
IT IS FURTHER ORDERED that Plaintiffs’
Motion for Summary Judgment Against Defendant
McLennan County, (ECF No. 43), is DENIED.
IT IS FURTHER ORDERED that Plaintiffs’
Motion for Summary Judgment Against Defendant
Roberts, (ECF No. 44), is DENIED.
IT IS FURTHER ORDERED that Plaintiffs’
Motion for Summary Judgment Against Riendfleisch,
(ECF No. 45), is DENIED.
IT IS FURTHER ORDERED that Plaintiffs’
request to take Sheriff McNamara’s deposition is
DENIED for the reasons stated on the record at the
hearing that took place on November 30, 2018.
IT IS FURTHER ORDERED that all
Plaintiffs’ claims against all Defendants are
DISMISSED WITH PREJUDICE.
IT IS FINALLY ORDERED that this case is
DISMISSED.
SIGNED this 3rd day of December, 2018.
_____[handwritten signature]_____
ALAN D ALBRIGHT
UNITED STATES DISTRICT JUDGE

51a
APPENDIX C
[Signed October 2, 2018]
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION
DEMETRIAS TAYLOR, AS
REPRESENTATIVE OF
THE ESTATE OF IRETHA
JEAN LILLY, DECEASED;
TERRANETHA RANCH,
DAYSHALON RANCH,
KEVIN RANCH, TERRANCE
HAMILTON, TERRANCE
LAMONT HAMILTON,
AS NEXT OF FRIEND AND
FATHER OF I.H.;
Plaintiffs,
-vsMCLENNAN COUNTY,
KIMBERLY RIENDFLIESCH,
DESERA ROBERTS,
Defendants

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

W-16-0095ADA

ORDER ADOPTING MAGISTRATE'S REPORT
AND RECOMMENDATION AND
DISMISSING PLAINTIFFS' CLAIMS AGAINST
DEFENDANT WELLS WITH
PREJUDICE

52a
Before the Court is the Report and
Recommendation of United States Magistrate Judge
Jeffrey C. Manske, (Dkt. 64). The report recommends
that Defendant John Wells, M.D.'s Motion for
Summary Judgment be granted, (Dkt. 26). The action
was referred to Judge Manske for findings and
recommendations pursuant to 28 U.S.C. §
636(b)(1)(B), Federal Rule of Civil Procedure 72, and
Rule 1(d) of Appendix C of the Local Rules of the
United States District Court for the Western District
of Texas. The Report and Recommendation was filed
on August 31, 2018.
A party may file specific, written objections to
the proposed findings and recommendations of the
magistrate judge within fourteen days after being
served with a copy of the Report and
Recommendation, thereby securing de novo review by
the district court. 28 U.S.C. § 636(b); Fed. R. Civ. P.
72(b). A party's failure to timely file written objections
to the proposed findings, conclusions, and
recommendation in a Report and Recommendation
bars that party, except upon grounds of plain error,
from attacking on appeal the unobjected-to proposed
factual findings and legal conclusions accepted by the
district court. See Douglas v. United Service Auto Ass
'n, 79 F.3d 1415. 1428-29 (5th Cir. 1996) (en banc). The
Plaintiffs timely filed an objection to the Report and
Recommendation on September 14, 2018, (Dkt. 65).
In light of the Plaintiffs' objections, the Court
has undertaken a de novo review of the case file in this
cause. Having carefully reviewed the Magistrate
Judge's Report and Recommendation, the Plaintiff's
objections to the Report and Recommendation, and
this case file, the Court does not dispute the
Magistrate Judge's findings or his recommendation.

53a
Plaintiffs' primary objection is that the statute of
limitations defense should not apply in this case to bar
the two Plaintiffs' claims who were minors until
March 3, 2017 and May 25, 2018. P1. Obj. R&R. at 1,
(Dkt. 65 at 1). However, the minor Plaintiffs' claims
are derivative of their mother's claims; therefore, any
valid statute of limitations defense against their
mother's claims is a valid defense against the
Plaintiffs' claims. See Reagan v. Vaughn, 804 S.W.2d
463, 468 (Tex. 1990), on reh'g in part (Mar. 6, 1991);
see also Diaz v. Westphal, 941 S.W.2d 96, 99 (Tex.
1997). Thus, Terrance Hamilton and "I.H.'s" claims
were not tolled while they were minors and their
claims are barred by the statute of limitations.
IT IS THEREFORE ORDERED that
Plaintiffs' Objections to the Report and
Recommendation of the United States Magistrate
Judge, (Dkt. 65), are OVERRULED.
IT IS FURTHER ORDERED that the Report
and Recommendation of the United States
Magistrate Judge, (Dkt. 64), filed in this cause is
ACCEPTED AND ADOPTED by the Court.
IT IS FURTHER ORDERED that Defendant
John Wells, M.D.'s Motion for Summary Judgment,
(Dkt. 26), is GRANTED.
IT IS FURTHER ORDERED that Defendant
Wells' Motion to Dismiss, or in the Alternative, Motion
for Summary Judgment, (Dkt. 42), is DENIED AS
MOOT.
IT IS FURTHER ORDERED that Plaintiffs'
Motion for Summary Judgment against Defendant
Wells, (Dkt. 46), is DENIED AS MOOT.
IT IS FINALLY ORDERED that all Plaintiffs'
claims against Defendant John Wells in this case are
DISMISSED WITH PREJUDICE.

54a
SIGNED this 2nd day of October, 2018.
_____[handwritten signature]_____
ALAN D. ALBRIGHT
UNITED STATES DISTRICT JUDGE

55a
APPENDIX D
[Signed August 31, 2018]
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION
DEMETRIAS TAYLOR, AS
REPRESENTATIVE OF
THE ESTATE OF IRETHA
JEAN LILLY, DECEASED;
TERRANETHA RANCH,
DAYSHALON RANCH,
KEVIN RANCH, TERRANCE
HAMILTON, TERRANCE
LAMONT HAMILTON,
AS NEXT OF FRIEND AND
FATHER OF I.H.;
Plaintiffs,
-vsMCLENNAN COUNTY,
KIMBERLY RIENDFLIESCH,
DESERA ROBERTS,
Defendants

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

W-16-0095ADA

REPORT AND RECOMMENDATION OF
THE UNITED STATES MAGISTRATE JUDGE
TO: THE HONORABLE ROBERT PITMAN,
UNITED STATES DISTRICT JUDGE

56a
This Report and Recommendation is submitted
to the Court pursuant to 28 U.S.C. § 636(b)(1)(c) and
Rules 1(h) and 4(b) of Appendix C of the Local Rules
of the United States District Court for the Western
District of Texas, Local Rules for the Assignment of
Duties to United States Magistrate Judges. For the
reasons
discussed
below,
the
undersigned
RECOMMENDS that Defendant John Wells, M.D.'s
Motion for Summary Judgment, (ECF No. 26) be
GRANTED.
The
undersigned
further
RECOMMENDS that Defendant Wells' Motion to
Dismiss, or in the Alternative, Motion for Summary
Judgment (ECF No. 42) be DENIED AS MOOT. It is
further RECOMMENDED that Plaintiffs' Motion for
Summary Judgment Against Defendant Wells (ECF
No. 46) also be DENIED AS MOOT.

I.

BACKGROUND

Plaintiff filed this action pursuant to 42 U.S.C. §
1983. Plaintiffs Demetrius Taylor, Representative of
the Estate of Iretha Jean Lilly, deceased; Terranetha
Ranch; Dayshalon Ranch, Kevin Ranch; and Terrance
Hamilton, as Next Friend of I.H., bring this suit
alleging McLennan County and its employees violated
Ms. Lilly's constitutional rights to reasonably
adequate medical care. Pl.'s Amended Compl. ¶1, ECF
No. 18. Plaintiff names the following defendants:
McLennan county, Kimberly Riendfliesch, Desera
Roberts, and Dr. John Wells.
On October 6, 2014, Iretha Lilly attended a 10:30
a.m. hearing at the McLennan County 19th District
Criminal Court and was ordered to take a drug test.
See P1.'s Amended Compl. The results of the drug test
showed Lilly tested positive for marijuana,

57a
amphetamine, and methamphetamine. Id. Following
the positive test for controlled substances, the judge
ordered Lilly to jail for violating the terms of her
probation. Id. Three courtroom deputies attempted to
take her into custody, and Lilly refused to place her
hands behind her back to be handcuffed. Id. During
the process of taking Lilly into custody, an officer
tased Lilly three times. Id. at ¶ 22. Shortly after being
tased, Lilly was taken into custody and booked into
McLennan County Jail. Id. Prior to being transported
to jail, Lilly allegedly began to complain of chest pain
and requested medical attention. The defendants did
not immediately take her to an emergency room. That
night, staff found her unconscious in her cell. Lilly was
then taken to the hospital where she was pronounced
dead. A subsequent autopsy concluded that Lilly died
as a result of atherosclerotic coronary artery disease,
indicating the "toxic effects of methamphetamine
contributed to the cause of death." Am. Compl. at 9.
On October 4, 2016, Plaintiffs filed suit. On July
17, 2017, Plaintiffs amended their complaint to add,
in part, a claim against Dr. John Wells. Wells brings
the instant Motion for Summary Judgment asserting
that Plaintiffs sued him after the expiration of the
applicable limitation period. Plaintiffs have
responded, arguing that the discovery rule permits
the otherwise untimely addition of Dr. Wells. The
parties have fully briefed the issue. See ECF Nos. 26,
27, 28.
A. Summary Judgment
Summary judgment is appropriate "if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to

58a
judgment as a matter of law." Fed. R. Civ. P. 56(a);
Tolan v. Cotton, 134 S. Ct. 1861, 1866 (2014). A
material fact is one that is likely to reasonably affect
the outcome of the case. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986). An issue is not genuine
if the trier of fact could not, after an examination of
the record, rationally find for the non-moving party.
Matsushita Elec. Indus., Co. v. Zenith Radio Corp.,
475 U.S. 574, 587 (1986). As such, the burden of
demonstrating that no genuine dispute of material
fact exists lies with the party moving for summary
judgment. Celotex Corp. v. Catrett, 477 U.S.
317, 323 (1986).
Once presented, a court must view the movant's
evidence and all factual inferences from such evidence
in a light most favorable to the party opposing
summary judgment. Impossible Elecs. Techniques v.
Wackenhut Protective Sys., Inc., 669 F.2d 1026, 1031
(5th Cir. 1982). Accordingly, the simple fact that the
court believes that the non-moving party will be
unsuccessful at trial is insufficient reason to grant
summary judgment in favor of the moving party.
Jones v. Geophysical Co., 669 F.2d 280, 283 (5th Cir.
1982). However, "[w]hen opposing parties tell two
different stories, one of which is blatantly contradicted
by the record, so that no reasonable jury could believe
it, a court should not adopt that version of the facts for
purposes of ruling on a motion for summary
judgment." Scott v. Harris, 550 U.S. 372, 380-81
(2007).
B. Statute of Limitations
A district court may dismiss a complaint on
statute of limitations grounds if it is clear from the

59a
complaint that the claims are time-barred. Moore v.
McDonald, 30 F.3d 616, 620 (5th Cir. 1994). Since 42
U.S.C. § 1983 does not provide a statute of limitations,
the statute of limitations for a civil rights action is
determined by state law. Owens v. Okure, 488 U.S.
573 (1989); Burrell v. Newsome, 883 F. 2d 416, 418
(5th Cir. 1989). Owens makes it clear that the statute
of limitations for all § 1983 claims is the forum state's
"general or residual statute for personal injury
actions." 488 U.S. at 250; Jackson v. Johnson, 950
F.2d 263 (5th Cir. 1992). In Texas, the general
personal injury limitations period is two years.
Stanley v. Foster, 464 F.3d 565, 568 (5th Cir. 2006);
Tex. Civ. Prac. & Rem. Code Ann. § 16.003(a) (Vernon
2005).
The Texas personal injury limitation statute
specifically provides that a cause of action accrues
upon the death of the injured person. Tex. Civ. Prac.
& Rem. Code Ann. § 16.003(b) (Vernon 2005). The
Fifth Circuit has held that the limitations period
begins to run "the moment the plaintiff becomes
aware that he has suffered an injury or has sufficient
information to know that he has been injured."
Piotrowski v. City of Houston, 237 F.3d 567, 576 (5th
Cir. 2001). "The standard in § 1983 actions provides
'that the time for accrual is when the plaintiff knows
or has reason to know of the injury which is the basis
of the action." Shelby v. City of El Paso, Tex., 577 F.
App'x 327, 331 (5th Cir. 2014) (quoting Burrell v.
Newsome, 883 F.2d 416, 418 (5th Cir. 1989).
In the instant case, Plaintiffs' cause of action
arose on October 6, 2014, when Lilly died. Plaintiffs
filed their original complaint on October 4, 2016, only
two days before the expiration of the two-year
limitation period. Absent tolling of the limitation

60a
period, Plaintiffs' new claim against Dr. Wells, added
on July 17, 2017, is barred by the limitation statute.
Plaintiffs invoke the Texas discovery rule
exception to limitation statutes. See Moreno v.
Sterling Drug, Inc., 787 S.W.2d 348, 351 (Tex. 1990).
They argue that in "the summer of 2016", they
submitted a Public Information Act request to the
McLennan County Sheriff's Department to learn the
names of persons involved in Lilly's medical care. ECF
No. 27 at 2. The department's response did not
identify Dr. Wells. See ECF No. 27-1 at 2. In March
of 2017, Plaintiffs served a subpoena on the Texas
Rangers to obtain a copy of that agency's investigation
report.
Plaintiffs obtained the report
"on
approximately March 24, 2017." ECF No. 27 at 2; ECF
No. 27-2 at 2-5. "This report was the first time that
Plaintiffs or their counsel became aware of Dr. Wells'
name or involvement in this case." ECF No. 27 at 2.
Plaintiffs argue that they could not possibly have
known of Dr. Wells until they obtained the
investigatory report from the Texas Rangers, and as
such, the discovery rule should apply, and render their
addition of Dr. Wells to this action timely.
The discovery rule, however, "is an accrual rule
for the applicable statute of limitations—not a tolling
rule—and simply defers the accrual of a cause of
action." Shelby v. City of El Paso, Tex., 577 F. App'x
327, 331 (5th Cir. 2014) (admonishing parties not to
confuse tolling and accrual rules for statute of
limitations). The Texas discovery rule defers accrual
of a claim until the plaintiff knew of, or through the
exercise of reasonable diligence, should have known of
the facts giving rise to the claim. Barker v. Eckman,
213 S.W.3d 306, 311-312 (Tex. 2006); Moreno, 787
S.W.2d at 351.

61a
As discussed above, Plaintiff's cause of action
accrued upon the death of Iretha Lilly. When a section
1983 plaintiff knows of an injury and the cause of that
injury—for example, negligent medical care resulting
in the death of a jail inmate—the limitations period
begins. At that time, a plaintiff is charged with a duty
to diligently investigate his claims. Simply because a
plaintiff later learns through a Texas Rangers
investigation, for example, that an additional
defendant may also be liable does not restart the
limitation period as to the novel defendant. A decision
by the Fifth Circuit clearly demonstrates this
principle:
The fact that the Longorias took all of
this action after the first flood and
before the second clearly establishes
that they knew of their injury, and were
on notice of its cause, at the occurrence
of the first flood. . . . [W]e reject the
Longorias' argument here that the
statutory period was tolled until they
learned through a newspaper article of
possible wrongdoing by this defendant.
They were on ample notice after the
first flood that it would be appropriate
to investigate the possibility of fraud. At
that point, the limitations period began
to run and the Longorias acquired a
duty to exercise reasonable diligence to
discover their cause of action. The
argument that the statutory period is
tolled until the plaintiff learns that the
defendant's conduct may have been

62a
wrongful finds no support in the
relevant case law.
Longoria v. City of Bay City, Tex., 779 F.2d 1136, 1139
(5th Cir. 1986).
Because the plaintiffs were aware of the death
of Iretha Lilly on October 6, 2014, the limitations
period began to run on that date. Plaintiffs acquired
the duty to investigate all potential defendants who
could be responsible. Instead, Plaintiffs appear to
have waited until the summer of 2016 to begin
investigating their claim. They then waited until two
days before the expiration of the limitation period to
file this action. After they learned of Dr. Wells'
involvement, they waited another four months to seek
leave to add him to this lawsuit. Taken in context, this
lack of due diligence resulted in the expiration of the
statute of limitation as to all claims against Dr. Wells.
In these circumstances, the discovery rule cannot
operate to alter or defer the accrual of Plaintiffs' cause
of action against Dr. Wells.
III. RECOMMENDATION[*]
After thoroughly reviewing the Motions and
exhibits, the undersigned RECOMMENDS that
Defendant John Wells, M.D.'s Motion for Summary
Judgment (ECF No. 26) should be GRANTED. The
undersigned
further
RECOMMENDS
that
Defendant Wells' Motion to Dismiss, or in the
Alternative, Motion for Summary Judgment (ECF No.
42) be DENIED AS MOOT. It is further
*

[there is no section II].

63a
RECOMMENDED that Plaintiffs' Motion for
Summary Judgment Against Defendant Wells (ECF
No. 46) also be DENIED AS MOOT.
IV. OBJECTIONS
The parties may wish to file objections to this
Report and Recommendation. A party filing objections
must specifically identify those findings or
recommendations to which objections are being made.
The District Court need not consider frivolous,
conclusive, or general objections. See Battle v. United
States Parole Comm 'n, 834 F.2d 419, 421 (5th Cir.
1987).
A party's failure to file written objections to the
proposed findings and recommendations contained in
this Report within fourteen (14) days after the party
is served with a copy of the Report shall bar that party
from de novo review by the District Court of the
proposed findings and recommendations in the Report
and, except upon grounds of plain error, shall bar the
party from appellate review of unobjected-to proposed
factual findings and legal conclusions accepted by the
District Court. See 28 U.S.C. § 636(b)(1)(C); Thomas
v. Am, 474 U.S. 140, 150-53 (1985); Douglass v. United
Services Auto. Ass'n, 79 F.3d 1415 (5th Cir. 1996)
(enbanc).
SIGNED August 31, 2018.
____[handwritten signature]_____
JEFFREY C. MANSKE
UNITED STATES MAGISTRATE JUDGE

64a
APPENDIX E
[Received March 24, 2017]
Report of Texas Ranger Patrick Peña
[Excerpts]
…
7.3
ROBERTS’ written statement continued:
“…The EKG that was presented to me was an
abnormal EKG…The nurses stated that the inmate
was complaining of intermittent chest pain and arm
pain. I was not informed by the nurses she was
showing signs/symptoms of a heart attack…I asked
that the EKG be repeated…”
…
7.6
ROBERTS' written statement continued:
“I received the EKG picture(s) from Lieutenant. Ward
at approximately 2023. I received a picture of the
initial EKG, along with the second EKG. I felt it was
probable inmate Lilly was having a cardiac event due
to the ST elevation still present in the second EKG. I
immediately forwarded the picture to Dr. Wells on his
cell phone. I forwarded the EKG to Dr. Wells so he can
make the determination to send inmate Lilly to the
hospital. It is policy when Dr. Wells is available, that

65a
he be the determining factor if an inmate is to be sent
to the hospital. Dr. Wells was available on the night
in question.”
“I felt that Dr. Wells would have phoned me when he
received the pictures, when he had not phoned I
phoned him at approximately 2036. I phoned Dr.
Wells to ensure that he had gotten the text with the
EKG pictures, and he said he was going to check. I
informed him at that time I had given the order to
administer Aspirin and Nitro.”
7.7 ROBERTS’ written statement continued:
“At approximately 2039 I received a call from Dr.
Wells stating that he had received the text with the
pictures. We discussed that the ST elevations were
still present in the second EKG, but the ST elevation
was more pronounced. Dr. Wells told me he was going
to phone the jail and speak with the nurses himself. I
informed Dr. Wells that I had been speaking with
Nurse Riendfliesch, which was in Intake and made
sure he knew that phone extension. I assumed when
Dr. Wells told me he was going to call the jail himself
that he was going to order inmate Lilly be taken to the
hospital. I assumed this because I felt inmate Lilly
was having a cardiac event and needed to go to the
hospital for further evaluation.”
…
13.8 SMITH’s written statement concluded
…INMATE
WAS
APPROXIMATELY

TAKEN
21:49. I

BY
EMT
AT
CALLED D.O.N.

66a
ROBERTS BACK AND TOLD HER WHAT
HAPPENED AND FOR D.O.N. ROBERTS TO CALL
DR. WELLS AND LET HIM KNOW WE HAD AN
INMATE TAKEN TO EMERGENCY ROOM,
BECAUSE IT IS PROCEDURE TO NOT SEND ANY
INMATE OUT OF JAIL WITHOUT DR. WELLS’
APPROVAL.
HOWEVER,
DUE
TO
THE
EMERGENCY CIRCUMSTANCES I MADE THE
DECISION TO HAVE EMS CALLED WITHOUT HIS
DIRECT APPROVAL AT THE TIME."
…
13.15 RIENDLIESCH’s written statement continued:
"At that time he told me to have the nurses call him
so they could do a further assessment on inmate Lilly
to determine if she needed to go to the hospital and
that she could possibly be having a MI (Myocardial
Infarction). During my conversation with Dr. Wells he
did not sound alarmed and remained calm. Dr. Wells
did not order that Inmate Lilly be taken to a hospital
emergency room. I am not trained to read EKG’s, but
when I heard Dr. Wells state Inmate Lilly was
possibly having a Myocardial Infarction I was
wondering why Dr. Wells was not ordering Inmate
Lilly be taken to a hospital emergency room. At
approximately 2100, I received a call from Nurse
Shelia Smith, LVN in regards to getting a report on
inmate Lilly. Once report was given, Nurse Smith
stated that she was just laying there on the bunk in
MSG 6 and not responding to verbal commands. At
that time, she was waiting for female officers to arrive
so they could go in and check on inmate Lilly."

67a
…
18.6 [Cardiologist Charles Albert SHOULTZ] stated
the EKGs indicated a clogged artery and the patient
(LILLY) should have been taken to a hospital to
receive treatment for a heart attack. SHOULTZ stated
both EKGs were "good quality studies" and did not
indicate that the patient's (LILLY's) movement or
heavy breathing effected the EKG. SHOULTZ stated
both EKGs were correct when they indicated
“abnormal” and should have been an alert. SHOULTZ
ended this interview by stating, “My diagnosis would
be that patient is in the midst of having a big heart
attack and should be in the hospital.”
…

68a
APPENDIX F
[Conducted April 9, 2018]
Deposition of Respondent Dr. John Wells
[Excerpts]
…

Page 10

Q. What qualified you for that position?
A.· Number one, I have many years of medical
experience in background and training.· Number two,
I received an MBA for the management position there,
and they were looking for a clinical and a management
position.· So this was more about developing policies
and procedures, education and developing protocols
and economics for the county facility.
Q.· Developing those protocols, policies
procedures, that was part of your job?

and

A.· Yes.
…
Page 14
Q.· Did you supervise the medical staff at the
McLennan County Jail?
A.· Yes.
…

69a
Page 28
Q.· You mentioned that when you came on board that
you were responsible for developing policies,
procedures and protocols.· Is that accurate?
A.· That was one of my job descriptions.
…
Pages 32-33
Q.· Is a person presenting with chest pain typically
considered a priority?
A.· Yes.
Q.· Why?
A.· Because of the ominous outcome that can occur
from that.
…
Page 36
Q.· What type of medical care could she have received
earlier?
A.· The best medical care we could have provided her
from McLennan County was to transfer her to the
local medical facility.
Q.· Is that what should have been done, in your
opinion?

70a
A.· It depends on which stage we're talking about.
Q.· Any stage.
A.· Yes.
Q.· At what stage should she have been transferred,
in your opinion?
A.· Based on the information that I have and based on
reasonable probable doubt, probably would have been
after we had done the first EKG.
…
Page 81
Q. Did you train her [Roberts] on how to read EKGs?
A. No.
Q. But being an ER nurse you know that she was
trained how to do this?
A. Somewhere along her education.
Q. Is that because she told you she was trained or
because you're surmising she was trained?
A. I'm surmising.
…

71a
Page 82
Q. Do you think she [Nurse Roberts] acted as if this
EKG was telling her that Ms. Lilly was experiencing
an ST elevation?
A. Yes.
…
Page 84
A. I trained her [Nurse Roberts] in terms of medical
policy and procedures and protocols and how to
perform EKGs.
…
Page 85
Q. Did she [Nurse Roberts] act when she received this
document [the EKG]?
A. From what I hear she did not.
Q. Was that decision to not act after she received this
document reasonable, in your medical opinion?
A. No.
…

72a
Pages 108-109
Q. So does that mean there were no nurses in the
medical ward?
A. No.
Q. Who was in the medical ward if Nurse Riendfliesch
wasn't there and no other nurses were?
A. There was no nurses there.
Q. There were no nurses there. Is that, in your
medical opinion, a reasonable scenario to have a
medical unit with no nurses in it?
A. Yes. This is a jail. This is not an ICU. This is not
intensive care. This is not a hospital. This is a jail
facility.
Q. And in your opinion it was reasonable also for there
to be no nurses there despite the presence of someone
who had elevated ST?
A. Well -Q. ST elevation. Excuse me.
A. Again, it was beyond my capacity to change
anything at that point in time.
Q. I'm not asking you what you had the ability to
change. I'm asking you for your opinion as to whether
or not you believe it was reasonable.

73a
A. Yes.
Q. You believe it was reasonable for there to be no
nurses in the medical unit at the time despite the
presence of somebody who had ST elevations?
MR. ROEHM: Objection; form.
Q. (BY MR. DEMOND) Is that accurate?
A. No.
Q. It's not accurate. Was it unreasonable for there to
be no nurses in the medical unit at the time Ms. Lilly
was in there with ST elevations?
MR. ROEHM: Objection; form.
Q. (BY MR. DEMOND) Was it unreasonable?
A. The hesitation on my part is this, okay. In an ideal
situation, yes, it was unreasonable but in the present
situation and the area we're working it was not
unreasonable.
Q. Because it was a jail?
A. Because it was a jail and what was going on at that
particular moment.
Q. What else was happening at that particular
moment?
A. During this time period between 7:00 and about
8:30 depending, the nurses are in the process of

74a
passing pills, okay. The nurses are not in the medical
ward. The nurses are in various aspects of the jail
passing medications, okay. Now, depending on the day
and depending on the activities and depending on the
volume of patient we try to remain -- try to keep at
least one nurse in the medical facility, but apparently
on this day at this time we were occupied. The nurses
were busy doing other tasks and they were already
gone and doing their tasks while this information was
going on with Ms. Lilly. And they were not aware of
what was going on with Ms. Lilly and there was no
way of having another nurse available.
…
Page 112
Q. …it remains your opinion that not having anyone
in the medical unit at that time under these
circumstances was reasonable because it was a jail. Is
that accurate?
A. Yes.
…
Page 113
A. Because I wanted to see -- again, in a jail situation,
the jail circumstances, okay, I wanted to see how Ms.
Lilly was doing and how she had responded to the first
medication to make that determination. That was the
reason why I gave her a call before I made a decision
on what I should finally do with Ms. Lilly.

75a
Q. But you never did determine whether or not she
responded to nitroglycerine, did you?
A. No, I did not. I never got that information.
…
Pages 118-119
Q. Did McLennan County give you ultimate
responsibility over the medical unit at the McLennan
County Jail?
A. My question is what do you mean by ultimate?
Q. Well, was there anybody who made decisions that
could overrule you?
A. Oh, yes.
Q. In what respect could they overrule you?
A. Anybody in the jail administration and the sheriff's
administration could overrule my decisions except for
medical care.
Q. Well, I appreciate you bringing up the distinction.
That was my intended question. So did you have
ultimate responsibility with respect to medical care at
the McLennan County Jail?
A. Yes.
Q. So there was no one within McLennan County who
could overrule your medical decisions.
Is that

76a
accurate?
A. Who could, no.
Q. It is accurate that they could not?
A. They could not.
…
Pages 124-125
Q. (BY MR. DEMOND) Did anyone oversee your
policies, practices, customs or procedures? Did you
have to submit it to anybody for approval?
A. No, I did not.
Q. Did you have to submit a request to anyone to
delegate authority to your nurses?
A. No, I did not.
Q. So you had the authority to do that on your own.
Is that accurate?
A. Yes, in accordance to the rules by the Texas
Medical Board.
Q. And what authorities do they allow you to
delegate?
A. Anytime that you train -- adequately train and
supervise medical staff you can delegate certain

77a
authority to them. Sometimes that's basically pretty
much -- what's the word I want -- standard orders.
…
A.· In this particular matter the nurses had the
authority to -- particular in this case where we had an
RN involved, make an assessment and if they thought
it was urgent enough in this case they could have
called the paramedics, EMS and transferred the
patient only to notify me.
…
Page 126
Q. (BY MR. DEMOND) Did you report to anyone
concerning your decisions to treat or not treat inmates
at the McLennan County Jail?
A. No, I did not.
…
Page 129
Q.· In your medical opinion was her myocardial
infarction a severe one?
A.· I think so.
…

78a
Pages 130-131
Q.· Was there any indication from anything you've
seen that would lead you to believe that Ms. Lilly
would have healed from her myocardial infarction
without medical intervention?
A.· No, she would not have.
…
Page 131
Q. Under what circumstances would your nurses
normally perform EKGs?
A.· In any case where they suspect that the particular
inmate might be suffering from a cardiac disease.
…
Q. Are the nurses trained to read and interpret
EKGs?
A.· No, they're not.· Let me clarify.· They are taught
to read EKGs but they do not have the training or
the authority to make a determination.
…
Pages 132-133
Q. Your verbal standing orders, did you submit those

79a
to McLennan County for approval?
A. No, I did not.
Q. So it was just the way you operated the medical
unit at the McLennan County Jail?
A. McLennan County Commissioner's Court,
McLennan County sheriff, McLennan County Jail
administration are not medical authorities. I did not
have to submit my medical treatment to a non-medical
personnel for authorization.
Q. Because they trusted you to do it?
A. And that's what the Texas Medical Board does by
giving me a license.
Q. They didn't ask you to because they trusted you to
do it. Is that accurate?
A. Exactly.
…
Page 137
Q. In your medical opinion when do people with an
EKG like Exhibit 1 require medical attention?
A.· As soon as possible.
Q.· Same with EKG -- with Exhibit No. 2?
A.· Yes.

80a
…
Page 138
Q. Why did the jail have an EKG?
A. To make the diagnosis and try to assess the
patients who complain of chest pain.
Q. Even when there was no doctor on site?
A. Yes.
Q. Was there any other doctor who worked for the
McLennan County Jail medical unit other than you?
A. No, sir.
Q. Have you ever personally approved the transfer of
an inmate from the jail to the hospital?
A. Yes, I have.
Q. How many times have you done that?
A. I have no idea.
Q. Many?
A. Many.
…

81a
Page 141
A. No nurse ever asked me to transfer Ms. Lilly to a
hospital.· No nurse asked me should she be
transferred to the hospital.· No nurse ever
recommended to me that they thought that she should
be transferred to the hospital.
…
Page 152
Q.· So would it be fair to say that you pretty much had
full reign and control over the medical unit at the jail?
A.· Yes.
…
Page 154
Q. (BY MR. DEMOND) Was anyone at the McLennan
County Jail trained to read an EKG other than you
and Ms. Roberts?
A. No.
…
Page 172
Q. Did you ever go into detail with her as to the depth
of that training when she was an ER nurse?
A. No. Her actual training, no, I didn't.

82a
…
Page 195
Q. So this policy by McLennan County to provide
medical care to inmates was a policy that you followed
and were obligated to follow during your tenure as the
medical director?
A.· Correct.
Q.· If you go to the second page, Paragraph 4.6, can
you read the first two sentences?
A.· Emergency medical treatment.· Emergency
medical treatment is available 24 hours a day, seven
days per week.· Medical personnel will determine
when an inmate is in need of medical attention or is in
medical crisis.
…
Pages 227-28
Q. And in that incident you authorized jail medical
staff to evaluate, diagnose and treat the patient; is
that correct?
A. That's what they [the Texas Medical Board]
alleged.
Q.

Is that

A. Yes.

what you were

reprimanded for?

83a
APPENDIX G
[Conducted April 24, 2018]
Deposition of Dr. Paul W. Dlabal
[Excerpts]
Page 37
A. … And in reading the case findings, the various
affidavits, it does appear there was confusion among
the staff as to who had the authority to do what with
regard to emergency care of a serious medical illness.
…
Page 53
A. Yes, I think a clinic in the field such as we are
discussing here would be incapable of providing any of
those treatments, and ultimately this patient required
transport by EMS to a facility containing the
capability for these treatments, and that any delay in
transfer was harmful or deleterious to her condition
as the minutes rolled by minute by minute.
…
Page 64
A. Immediately if not sooner; or if that is not feasible,
then to transport this patient because knowing this
clinic facility there is no service or treatment available
which would be expected to reverse this process.
…

84a
Page 89
A. Well, by nature nurses do not diagnose so she would
have had the circumstantial knowledge that at least
the physician was considering an MI and that the staff
was sufficiently concerned. They had done two, if not
three EKGs and the patient had chest pain so to a
trained nurse, at any level, this is an MI until proven
otherwise.
…
Page 98
Q. Would a reasonably trained medical professional
know that this EKG revealed an ST elevation?
A. Certainly that, yes.
…
A. … I would simply tell the court that whether one
had EKG skills or not, the computer interpretation of
the EKGs is quite clear. On the first EKG in bold
letters, consider acute infarct; and on the second EKG,
consider acute STEMI, consider acute infarct. So
armed with that knowledge any healthcare provider
at any level would or should consider acute infarct.
Q. In your opinion would it be arguably reasonable for
a medical -- for a reasonably trained medical
professional who saw these EKGs to not transfer Ms.
Lilly to a hospital?
A. Any medical professional confronted with this

85a
patient with chest pain radiating to the left arm and
this EKG indicative of an acute STEMI would have
the obligation to transfer this patient through
channels or by any means necessary as expeditiously
as possible.
…
Pages 107-108
The computer interpretation is written for the less
skilled healthcare professionals so that they, number
one, know that the tracing is technically satisfactory
and they don't have to repeat it in the moment or the
computer itself wouldn't read it. And then to give a
perspective from the computer's interpretation as to
the considerations inherent in this EKG and the
concerns to be generated from this EKG.

86a
APPENDIX H
[Signed July 10, 2018]
Dr. Dlabal’s Expert Report
Paul W. Dlabal, MD, FACP, FACC, FAHA
Cardiovascular Research Associates, PA
July 10, 2018
William Demond
Attorney
1520 Rutland Street
Houston, TX 77008
Patient lretha Jean Lilly (deceased)
Dear Mr. Demond:
I am a physician licensed in Texas and have been
asked to provide medical perspective and opinions
regarding the medical care and treatment,
surrounding the death of Iretha Jean Lilly at the
McLennan County Jail. This report supplements my
previously submitted expert report which is now
incomplete given some statements from Dr. Wells in
Dkt 48 (particularly page 5 at paragraph 18). I
supplement my expert report as follows:
Available records have shown the undisputed facts
that the patient complained of chest pain radiating to
her left arm, lasting up to four hours, during which
time multiple medical personnel provided evaluation,

87a
including two EKGs, which were read by computer
interpretation
as
"ACUTE
MYOCARIDAL
INFARCTION" and "CONSIDER STEMI (the most
severe form of Ml). She was not transported to an ER,
nor to a hospital, and progressed to the point of sudden
cardiac death by cardiac arrest, as a consequence of
her myocardial infarction. Autopsy findings showed
evidence of the acute myocardial infarction as well as
atherosclerotic coronary artery disease and
thrombosis of the left anterior descending coronary
artery, consistent with STEMI involving the
anterolateral portion of her heart. At issue is the
standard of care applicable to medical personnel
providing care to inmates at the McLennan County
Jail, and whether the deficiencies of such care rose to
the level of subjective conscious indifference. I will
address these questions in 2 parts.
I. Clinical Context
In order to address the considerations above, it
is necessary to recall that heart disease is the
leading cause of death in men and women in the
United States, as well as worldwide, and
continues to be so to this day. As reported in
medical statistics, heart attacks (myocardial
infarctions or MI's) occur in approximately
790,000 Americans each year, of which as many
as half suffer out-of-hospital cardiac arrest,
which is fatal in more than 90% of cases. This
knowledge is widely available to the general
public and is part and parcel of the training of
any medical personnel. Thus, a layperson or
any trained medical person, confronted with an
adult patient who complains of chest pain

88a
radiating to the arm, must consider the
possibility of heart attack, and the predictably
dire consequences of the condition if left
untreated.
In terms of differential diagnosis, when
encountering such a patient, the first and most
likely cause of unprecedented and unprovoked
chest pain is heart attack, for which the
appropriate response is emergency transport to
the nearest medical facility capable of providing
emergency care. It is not necessary to know the
type, severity or even the confirmation of the
presence of MI; it is sufficient to know that MI
is a possible consideration, which should lead to
the appropriate response of activation of EMS
services for transport of the patient to the
nearest medical facility. Failure to initiate such
transport and access care predictably and
foreseeably reduces the patient's likelihood of
survival in MI, and dramatically increases the
risk of cardiac arrest and sudden cardiac death.
Once cardiac arrest has occurred, resuscitation
efforts, even by the most well-trained personnel
with sophisticated equipment, in or out of a
hospital setting, do not guarantee survival. In
fact, despite the best of efforts, cardiac arrest
continues to carry a 90% mortality rate. Early
intervention for Ml is the only reasonable
approach to prevent progression of Ml to
cardiac arrest and sudden cardiac death.

89a
II. Triage
Medical
resources,
whether
personnel,
facilities, or equipment, are by nature limited
and are incapable of providing ultimate
treatment to each and every patient in each and
every care setting. Accordingly, there must be a
system of rational application of resources for
optimal effect, to do the most good for the
greatest number of patients. This process is
called Triage, and this concept is not new.
Rather, it was developed during the Napoleonic
Wars by physicians attending battlefield
wounded, wherein they employed a system of
sorting or ordering patients' treatments, based
upon the severity of their injuries, as well as the
probability of survival, allowing for the efficient
rationing of treatment despite limited
resources which were insufficient for all. In
triage, the highest priority is given to those for
whom immediate care will likely make the
greatest positive difference in outcome.
While the usual context for triage is initial care
of injured, or disaster management, the same
concept applies to sophisticated tertiary care
centers where one must decide the order in
which patients require and receive surgery. It
is even extended to complex and sophisticated
treatment protocols, such as heart transplants,
where one must prioritize care according to the
availability of donor organs, the need of the
patient, as well as the likelihood of a successful
outcome.

90a
Considering the case of lretha Jean Lilly, in context
of the above, it is clear that any layperson, whether a
correctional officer on duty or medical personnel,
aware of her symptoms and complaints, should
consider the very likely possibility of heart attack (Ml)
as a cause of this patient's chest pain. The simple
recognition of this possibility is sufficient for anyone,
whether medically trained or not, to activate
emergency response systems and to initiate transport
to appropriate medical facilities.
With regard to the medical personnel on duty in the
McLennan County Jail, on the day of occurrence, the
standard of care rises to a level of triage in order to
address the predictable and foreseeable consequences
of myocardial infarction. Given the limited resources
available in a medical clinic dedicated to the first
aid/emergency care of inmates, the recognition of the
possibility of myocardial infarction is sufficient to
allow and require triage, resulting in transport of this
patient to emergency facilities where available. Of the
approximately 900 inmates incarcerated at that time,
there could be none with more need of medical care
and attention than lretha Jean Lilly, for whom the
consequences of failure to access such care predictably
and foreseeably conferred a risk of death, and which
in fact did occur, consistent with the natural history
of untreated disease.
Considerable debate has arisen over the use of the
prison EKG, its attempted interpretation by
unqualified personnel and the responsibility for them
to act on the findings of the EKG. In simplest terms,
the EKG is unnecessary for the recognition of MI, and
to perform the function of triage as described above.

91a
By education, training, and licensure, nurses are not
capable of nor allowed to render medical diagnosis at
the bedside, nor interpretation of studies such as an
EKG. The capability of nursing personnel allows them
to access clinical data for reporting to the responsible
attending physician and, in the emergency setting, to
access emergency care as appropriate.
Nurses, by nature, are not capable of rendering
medical diagnoses.
Precisely for this reason,
computer interpretation of EKGs has been
implemented in order to allow untrained and
unqualified medical personnel to focus their attention
on the possibility of heart disease and, where
applicable, its severity.
In this case, the statements "CONSIDER ACUTE
MYOCARDIAL INFARCTION" and "POSSIBLE
STEMI,"' raise the level of concern to the highest
possible based upon computer reporting, given that
STEMI is the worst of all possible heart attacks and,
by implication, carries the highest risk of
complication, including death.
Given that an EKG was taken at the outset of this
condition, it was confirmatory of the condition.
Further, based upon the computer interpretation
written in plain English, there was sufficient
information to have heightened the awareness of the
nonmedical and medical personnel on duty as to the
acuity and severity of the condition, and should have
provided further impetus for initiating transport of
this patient to appropriate care. The rendering of
judgments regarding the accuracy and reproducibility
of the EKG by personnel insufficiently trained or

92a
unqualified to render such judgments only served to
delay transport of the patient to necessary care, and
provided nothing in the way of meaningful benefit.
Summary;
The care and treatment of lretha Jean Lilly by officers
and medical personnel at the McLennan County Jail
failed to meet even the most basic standards of care
applicable to such a patient and did, by definition, rise
to the level of subjective conscious indifference, which
ultimately led to the progression of the condition,
untreated, to its natural consequence, which is sudden
cardiac arrest leading to sudden cardiac death at the
time and place, and in the manner in which it
occurred.
Respectfully submitted,
____[handwritten signature]___
Paul W. Dlabal, MD, FACP, FACC, FAHA

93a
APPENDIX I
[Filed June 15, 2018]
Defendant Desera Roberts’ Motion for
Summary Judgment
[Excerpt]
The summary judgment evidence reflects that Nurse
Roberts’ actions were taken without malice or bias
whatsoever toward Lilly. To the contrary, Nurse
Roberts’ actions reflect an effort to provide a diagnosis
and treatment of Lilly’s serious medical condition –
based on information shared with her in person, and
later telephonically and electronically by other
medical staff at the Jail. No reasonable person or jail
nurse would have known that Nurse Roberts’ conduct
was unlawful under the circumstances she confronted
in connection with Lilly’s condition, if such actions
were found to be in violation of Lilly’s rights or other
law.

94a
APPENDIX J
[Filed June 15, 2018]
Defendant Kimberly Riendfliesch’s Motion for
Summary Judgment
[Excerpts]
…
Dr. Wells contacted LVN Riendfliesch around 8:45
p.m. to discuss Lilly. Dr. Wells told LVN Riendfliesch
that Lilly could be having a myocardial infarction but
did not tell Riendfliesch to send Lilly to the hospital.
Rather, Dr. Wells asked LVN Riendfliesch to tell the
other jail nurses [after pill pass] to further assess
Lilly’s situation and call him so he could decide what
needed to be done with Lilly. Ex. A, Riendfliesch Aff,,
¶7; Doc. 13, ¶¶45-48.
…
The provision of medical care to Lilly by Riendfliesch
was in compliance with the McLennan County’s jail
policies and Dr. Wells’ standing orders and protocol of
providing reasonable medical care to inmates.

95a
APPENDIX K
[Signed June 5, 2018]
Affidavit of McLennan County Sheriff
Parnell McNamara
[Excerpt]
I had no involvement in the medical care and
treatment which was provided to Iretha J. Lilly on
October 6, 2014, while she was an inmate at the
McLennan County Jail. At no time prior to the death
of Ms. Lilly, did I have any actual or constructive
knowledge that medical care and treatment was not
being provided to inmates as required by McLennan
County's official policy or that the medical needs of
inmates were being ignored by the jail and medical
staff at the McLennan County Jail, nor do I have any
such knowledge today…At no time prior to the death
of Ms. Lilly, did I have any actual or constructive
knowledge of any alleged policy or practice that the
nurses at the County Jail had to get prior approval
from Dr. Wells before they could send an inmate to the
hospital/ER. Additionally, at no time prior to the
death of Ms. Lilly, did I have knowledge of a policy,
practice, custom, procedure, or training wherein
medical intake personnel were permitted to perform
medical intakes of inmates while not medically
clearing inmates and failing to inform the supervising
doctor that the inmates had not been medically
cleared even after an inmate had been in jail for more
than six hours, had been tased, had been complaining
of chest pain, and/or had an abnormal EKG.

96a
APPENDIX L
[Sent February 26, 2018]
Email from McLennan County’s Attorney
Regarding Deposition under Federal Rule of
Civil Procedure 30(b)(6)
From: John Roehm
To: Meagan Hassan; William Pieratt Demond
Cc: Steve Henninger
Subject: RE: Taylor v. McLennan County, et al.
Date: Monday, February 26, 2018 11:35:16 AM
Attachments: image00 l. png
McLennan County Jail Health Services Plan
(567965).pdf
Counselors,
Just want to let you know that we have not forgotten
about your request to take a Rule 30(b){6) deposition
from the County. However, in order to designate the
appropriate person, we need to understand the scope
of your intended examination. Along those lines, you
provided the following topic area:
County policies, procedures, trainings, customs, and
protocols concerning the provision of emergency
healthcare to inmates at the McLennan County Jail
and methods utilized by McLennan County to ensure
medical staff at the McLennan County Jail were
aware of and in compliance with same.
We are not completely sure of what information you
are seeking from the County.

97a
…
[I]f you are seeking information about medical
decisions and/or what treatment should be given to a
specific inmate for a specific ailment, then this
information will have to come from members of the
medical staff. It is our understanding that Dr. Wells
did not promulgate any written policies/protocols
while he was in charge but rather had standing verbal
orders nor did he adopt and/or incorporate any of the
medical protocols that had been promulgated by his
predecessor. As the Medical Director, Dr. Wells was
solely responsible for promulgating and enacting
medical protocols for the jail medical staff.
We want to make sure we understanding [sic] what
information you are seeking from the County and
whether there is a County representative who can
provide such information. We want to prevent any
misunderstanding at the deposition. Look forward to
hearing from you.
John
John F. Roehm III  Attorney 
Fanning, Harper, Martinson, Brandt & Kutchin, P.C.
 www.fhmbk.com  Two Energy Square  4849
Greenville Avenue  Suite 1300  Dallas, TX 75206!
[sic] Direct; [sic] 972.860.0306  Main Phone:
214.369.1300  Facsimile: 214.987.9649

98a
APPENDIX M
[Sent July 5, 2016]
McLennan County’s Response to Petitioners’
Public Information Act Request
McLennan County Sheriff Dept
Health Services Division
3201 E Hwy 6
Waco, TX 76705
254 757-2555
254-753-2219 fax
July 5, 2016
To whom it may concern:
This memo is in reference to a request for information
for the names of the medical personnel involved in the
care of lretha Lilly on October 6, 2014.
Below are the names of the nurses involved in her
care on the requested date above.
Kimberly Riendfliesch
Chris Pryor
Trinecha Outley
Mary Wilson
Sheila Smith
Desera Roberts
Respectfully,
Alfredo Martiz
Medical Office Manager
Health Services Division
McLennan County Jail

99a
APPENDIX N
[Signed November 8, 2011]
Agreement for Medical Director/Physician
Services between McLennan County and
Dr. Wells
[Excerpts]
…
Article 1
Duties of Medical Director
1.1 The Medical Director and the Jail Physician will
be provided by the Company. The Company agrees
that the duties of the Medical Director and Jail
Physician shall include, but not necessarily be limited
to:
•

Provision of medical evaluation, care and
treatment to inmates of the Jail in accordance
with the applicable standards of care, accepted
medical practices, and any applicable laws, rules
or regulations;
…

•

Provision of medical services at the Jail at times
other than scheduled sick calls when such is
needed for the immediate welfare of an inmate;

•

Referral of inmates to specialists or facilities as
medically necessary;

100a
•

Establish and implement procedures, policies,
systems and protocols, and, review performance
and compliance of medical staff, ensure orders
have been charted and comp1ied with by staff,
and handle administrative duties;

•

Oversee the supervision of all Jail Medical Staff,
including the Director of Nursing, nurses, EMTs,
and clerical/administrative staff;

•

Establishing strict controls and accountability
for medications;

•

Implement procedures to ensure that the Jail
Medical Department maintains compliance with
all applicable government and professional
standards, including the standards of the Texas
Jail Commission;

•

Implement procedures to ensure the preparation
and maintenance of appropriate medical records
as to each patient to see that the accumulation
and organization of such records is accomplished
to provide adequate medical care;

•

Implement procedures to ensure that proper
licenses and credentials are held by all
professional medical staff, and that continuing
education requirements are met;
…

•

Approving all protocols followed by the Jail
Medical Staff;

101a
•

Scheduling of all Jail Medical Staff;

•

Oversight and supervision of annual evaluations
of all Jail Medical Staff;

•

Annually reviewing policies, procedures and
protocols for improvement/updating;

•

Providing leadership and guidance to Jail
Medical Staff;

•

Attending periodic meetings with Sheriff's Office
administrators to report on the Medical
Department's operations and to address
outstanding or emerging issues; and

•

Implementing quality assurance plans.

…
1.3 The primary purpose of transitioning to a more
permanent on-site physician is to provide increased
and consistent access to a physician at the Jail and
improvement of the administration and oversight of
the medical department. However, it is expected that
this transition will also result in the avoidance of
certain costs of outside care (and the transport and
security issues related thereto) where such care could
be just as aptly performed at the Jail.
…
1.4…the Jail Captain shall have no control over the
means or methods by which medical services are
provided or over the Physician's exercise of medical

102a
judgment, and has no authority to terminate this
Agreement.
…
Article 4
Medical Judgment and Discretion
The parties agree that decisions as to the care and
treatment of inmates shall be within the sole medical
judgment of the Physician, subject to the
constitutional requirement that there not be
deliberate indifference to a serious medical need of an
inmate.
…
6.1 County does not hold the Company or its Physician
harmless from suit or liability for performance of
services hereunder; nor does the Company or its
Physician hold harmless or indemnify the County.
Company agrees that its Physician shall exercise
professional skill and judgment in providing medical
services. Physician's exercise of medical judgment is
independent, and Physician shall not be considered an
employee of the County.
…
6.2 … The Physician is an independent contractor
providing professional medical services using his own
training, skill and medical judgment.

103a
EXECUTED in duplicate this [8th] day of [November],
2011

“COUNTY”
McLennan County, Texas
By: ___[handwritten signature]___
County Judge

“MEDICAL DIRECTOR/PHYSICIAN”
Melchizedek Medical, PLLC
By: ___[handwritten signature]___
John A. Wells, M.D.
Its: Manager

104a
APPENDIX O
[Taken October 6, 2014 at 5:56:45 pm]
Ms. Lilly’s First EKG
(See following fold-out page)

105a
APPENDIX P
[Taken October 6, 2014 at 8:09:01 pm]
Ms. Lilly’s Third EKG
(See following fold-out page)

